<html>
<title> - [H.A.S.C. No. 112-15]ARMY MODERNIZATION PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 112-15]

 
                      ARMY MODERNIZATION PROGRAMS

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 9, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
65-463                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4324332c03203630372b262f336d202c2e6d">[email&#160;protected]</a>  
                                     
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 ROSCOE G. BARTLETT, Maryland, Chairman
FRANK A. LoBIONDO, New Jersey        SILVESTRE REYES, Texas
JOHN C. FLEMING, M.D., Louisiana     MIKE McINTYRE, North Carolina
TOM ROONEY, Florida                  JIM COOPER, Tennessee
TODD RUSSELL PLATTS, Pennsylvania    GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             NIKI TSONGAS, Massachusetts
JON RUNYAN, New Jersey               LARRY KISSELL, North Carolina
MARTHA ROBY, Alabama                 MARTIN HEINRICH, New Mexico
WALTER B. JONES, North Carolina      BILL OWENS, New York
W. TODD AKIN, Missouri               JOHN R. GARAMENDI, California
JOE WILSON, South Carolina           MARK S. CRITZ, Pennsylvania
MICHAEL TURNER, Ohio                 KATHY CASTOR, Florida
BILL SHUSTER, Pennsylvania
DOUG LAMBORN, Colorado
                 John Wason, Professional Staff Member
                  Doug Bush, Professional Staff Member
                     Scott Bousum, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, March 9, 2011, Army Modernization Programs............     1

Appendix:

Wednesday, March 9, 2011.........................................    41
                              ----------                              

                        WEDNESDAY, MARCH 9, 2011
                      ARMY MODERNIZATION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1
Reyes, Hon. Silvestre, a Representative from Texas, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3

                               WITNESSES

Chiarelli, GEN Peter W., USA, Vice Chief of Staff, U.S. Army; LTG 
  Robert P. Lennox, USA, Deputy Chief of Staff, G-8, U.S. Army; 
  and LTG William N. Phillips, USA, Military Deputy to the 
  Assistant Secretary of the Army (Acquisitions, Logistics and 
  Technology), U.S. Army.........................................     5
Gilmore, J. Michael, Operational Test and Evaluation, Office of 
  the Secretary of Defense.......................................    22
Sullivan, Michael J., Director of Acquisition and Sourcing 
  Management, U.S. Government Accountability Office; and William 
  Graveline, Assistant Director, Acquisition and Sourcing 
  Management Team, U.S. Government Accountability Office.........    24

                                APPENDIX

Prepared Statements:

    Bartlett, Hon. Roscoe G......................................    45
    Chiarelli, GEN Peter W., joint with LTG Robert P. Lennox and 
      LTG William N. Phillips....................................    54
    Gilmore, J. Michael..........................................    76
    Sullivan, Michael J., joint with William Graveline...........    86
    Reyes, Hon. Silvestre........................................    48

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bartlett.................................................   111
    Mr. Platts...................................................   111

Questions Submitted by Members Post Hearing:

    Mr. Akin.....................................................   119
    Mr. Bartlett.................................................   115
    Mr. LoBiondo.................................................   119
    Mr. Rooney...................................................   119
    Mr. Turner...................................................   120
                      ARMY MODERNIZATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                          Washington, DC, Wednesday, March 9, 2011.
    The subcommittee met, pursuant to call, at 1:32 p.m., in 
room 2118, Rayburn House Office Building, Hon. Roscoe G. 
Bartlett (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE 
FROM MARYLAND, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Bartlett. Thank you for joining us as we consider the 
fiscal year 2012 budget request for the Department of the Army 
equipment modernization programs. Today we have two panels.
    Panel 1 witnesses include General Pete Chiarelli, vice 
chief of staff; Lieutenant General Robert Lennox, deputy chief 
of staff of the Army for requirements; and Lieutenant General 
William Phillips, military department--military deputy to the 
assistant secretary of the Army, acquisition, logistics, and 
technology.
    Panel 2 witnesses include Dr. Michael Gilmore, director of 
operational test and evaluation, Office of the Secretary of 
Defense; and Mr. Michael Sullivan, Government Accountability 
Office, director of acquisition and sourcing; and William 
Graveline, Government Accountability Office.
    Gentlemen, thank you for being here and thank you for your 
service to our country. I just returned from having led a 
delegation of members on a visit to Afghanistan, where we met 
with personnel from all of our services at several different 
locations. While I have always had misgivings about our 
involvement of Afghanistan, I want to note how I was again so 
highly impressed with the extraordinary courage, dedication, 
and sacrifice, and ability demonstrated every hour, every day 
by our service personnel. They are really quite remarkable.
    We have always done our best to make sure our personnel 
have what they need to execute their missions. I have been 
reenergized by this most recent experience to make sure we do 
all we can to support the absolutely outstanding men and women 
serving our Nation.
    In terms of this year's budget request, the Army's top two 
modernization priorities are the tactical network and the 
Ground Combat Vehicle Government programs. However, I would 
like to maintain that the number one modernization priority 
remains soldier equipment.
    In saying that, I don't mean to imply that properly 
equipped the soldier hasn't always--properly equipping the 
soldier hasn't always been a priority, especially for the 
witnesses in front of us today, but--whom I know share that 
concern. There is no doubt that the equipment and body armor 
that our soldiers have today is saving lives. However, 
individual riflemen commonly carry in excess of 100 pounds of 
gear on an all--on all dismounted missions; some more, some 
less than that.
    Equipment weight is a constant complaint we hear about when 
we talk to our deployed soldiers. Not surprising, we also see 
an alarming number of muscular-skeletal non-combat injuries in 
our military hospitals.
    While we certainly support enhancing the individual 
soldier's capability and protection, the price we often pay is 
more weight. I have often wondered if we would have taken just 
5 percent of what we spend on the now terminated Future Combat 
Systems program and applied it to lessening the weight of what 
are soldiers carry, where would we be today?
    I know Ranking Member Reyes shares my concern, which is why 
we have scheduled a specific hearing on this issue next week. 
Somehow we must figure out how to incentivize industry and 
academia to lessen the weight for our soldiers without 
lessening the protection that that weight provides them.
    In terms of the tactical network, I have always felt that 
one of the many mistakes that were made with the FCS [Future 
Combat Systems] program was that the Army should have first and 
foremost focused on getting the network right instead of trying 
to do all of the vehicles and unmanned vehicle components of 
the program simultaneously. We understand the importance of 
what the Army is trying to do with the tactical network. If we 
are going to send a soldier into harm's way he or she should 
never have to open a communications device and have it say 
``service not available'' or ``can you hear me now?''
    The committee has been very critical of the lack of network 
strategy over the last couple of years. It is my understanding 
that the Army has made a lot of progress this last year in 
laying out a nested network strategy.
    However, I am reminded of the old adage that a vision 
without resources is a hallucination. We need assurances that 
the network is based on an open architecture, isn't dependent 
on proprietary designs, and that it is pursued using full and 
open competition.
    Finally, the committee has and continues to support the 
Army's goal of pursuing a modernized combat vehicle. However, 
the committee needs to understand the rationale as to why the 
ground combat vehicle should proceed as scheduled or if it 
should move to the right in time.
    How do we know that the GCV [Ground Combat Vehicle] is the 
full spectrum vehicle the Army needs? Why did the Army not 
complete an analysis of alternatives before it issued the 
original requests for proposals, as this committee had 
encouraged?
    Can the Army afford to launch another program that could 
cost up to $30 billion to procure a vehicle that carries a 
squad of nine instead of the current six? Why not consider as 
an alternative option continuing to upgrade Abrams, Bradleys, 
and Strykers, focus on the network, and take part of the funds 
and apply it to lightening the load of the soldier?
    Ten years ago we were told that the Paladin howitzer 
couldn't be upgraded and that Crusader and then Non-Line of 
Sight-Cannon, N-LOS-C, was the only solution. And now that 
those programs have been terminated we are pursuing an upgraded 
Paladin howitzer, which we were told we couldn't do earlier on, 
albeit with technologies from Crusader and network--and N-LOS-
C. They weren't a total loss.
    To be clear, I am not saying that I don't support the GCV 
program. And to be fair, I believe the Army requirements will 
become clearer to the committee once the results of the 
analysis of conservatives are submitted.
    However, as was the case with the FCS program, it is this 
committee's responsibility to ask the hard questions now so 
that we don't learn in 5 years that the Army can't afford the 
GCV or that it is based on exquisite requirements.
    I now yield to my good friend and ranking member, Mr. 
Reyes, for any remarks that he cares to make.
    [The prepared statement of Mr. Bartlett can be found in the 
Appendix on page 45.]

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE FROM TEXAS, 
  RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. Reyes. Thank you, Mr. Chairman.
    And I would also like to add my welcome. Thank you, 
gentlemen, for being here today, and thank you for your 
service.
    Today's hearing on Army modernization again comes at a 
critical time for our Army. The Army has been at war for almost 
10 years--the longest continual period of combat for the U.S. 
Army since the war in Vietnam and the longest war ever for an 
all-volunteer Army.
    Like all wars, these wars have changed the Army in profound 
ways, and sometimes in ways that weren't predicted. The Army of 
today features soldiers operating from widely dispersed fixed 
locations and in relatively small elements, usually a company 
or below, instead of the constantly moving large formations 
that the Army practiced to fight for decades. The Army of today 
integrates unmanned systems, intelligence networks, biometrics, 
and communications networks in a very--in a way that was 
unforeseen before September 11th of 2001, when the term IED 
[Improvised Explosive Device] was not even in the Army's 
lexicon.
    At the same time, today's Army leadership faces the same 
dilemma faced by their predecessors, namely answering two 
critical questions: First, what kind of missions must the Army 
prepare for to perform? And second, how to equip the Army of 
today while preparing for the Army of tomorrow.
    Today's hearing will center on finding that critical 
balance and focus on the point for these two very important and 
pivotal questions. The fiscal year 2012 Army budget requested 
for modernization from my viewpoint is commendable in many 
different ways.
    For the first time in many years the Army has a single 
modernization strategy that is integrated and resourced and 
that covers the five key aspects of equipping the force. Our 
chairman mentioned most of them, but they are: Soldier 
equipment and weapons, and I certainly share the same concerns 
that the chairman does in terms of the weight and finding ways 
to address that challenge; second, communications, 
intelligence, and network equipment; third, aviation and UAVs 
[Unmanned Aerial Vehicles]; fourth, armored combat vehicles; 
and fifth, wheeled combat vehicles.
    A great deal of the credit for this clear and integrated 
approach lies with the vice chief of staff, General Chiarelli, 
who we are fortunate is here to testify at this hearing. While 
he has not yet fixed every single problem in Army 
modernization, his efforts and hard work have put the Army in a 
much stronger position to justify and protect its modernization 
efforts, both in the Pentagon and certainly here in Congress.
    When Secretary Gates testified before our committee in 
February he said that because the future is so uncertain 
procurement funds must be focused on those areas that are 
useful in many possible operations, not in any narrow range. In 
my view, the Army's 2012 budget request does that in most 
areas.
    It invests heavily in modernizing and expanding the Army's 
aviation capability and network communications. Both are areas 
essential to today's fight in Afghanistan and that the Army 
will be able to use in the future, no matter what kind of 
operations it conducts.
    Second, significant funds are also requested for upgrades, 
so for soldier personal equipment that is intended to improve 
lethality and protection while, again, reducing the critical 
weight factor, another area where the Army will benefit 
regardless of what the future holds and what future missions 
develop. In this request, the Army also continues to 
aggressively modernize its fleet of wheeled vehicles, from 
MRAPs [Mine Resistant Ambush Protected Vehicles], to trucks, to 
Humvees.
    And finally, in terms of armored vehicles the request makes 
what were probably the most difficult judgment calls. The 
request clearly focuses on the future, with heavy investment in 
the ground combat vehicle program. In order to achieve this 
focus on the future, however, the request does show a 
significant drop across the board in ongoing upgrades for 
current vehicles.
    In three major cases--the Abrams tanks, the Bradley 
fighting vehicles, and Stryker vehicles--the Army has chosen to 
accept the risk of production shutdowns in the 2013 to 2016 
timeframe as the Army waits to produce upgraded versions of 
these vehicles at the end of this decade. These shutdowns will 
present significant challenges to the Army and the defense 
industrial base, so I look forward to hearing more today about 
how the Army will mitigate the risk involved with this plan.
    However, despite this and other challenges, the Army 
modernization budget request for 2012 represents a solid plan 
for the future that seeks to balance the needs of today with 
the potential needs of tomorrow. While the subcommittee will 
carefully review this plan, I think the Army is starting from a 
position of strength, in large part due to the hard work over 
the past year from the three gentlemen that are sitting at our 
witness table.
    So today, Mr. Chairman, I look forward, as you do, to hear 
more about the details that will significantly impact the Army 
in 2012 and beyond. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Reyes can be found in the 
Appendix on page 48.]
    Mr. Bartlett. Thank you, Mr. Reyes.
    Without objection, all witness statements will be made a 
part of the hearing record.
    General Chiarelli, we do not normally have the benefit of 
hearing from the vice chief of staff at our yearly subcommittee 
modernization hearing, so we really appreciate you taking the 
time to help us understand the Army's modernization priorities. 
Clearly, among your many responsibilities Army equipment 
modernization is an issue of great importance to you and the 
Army or you wouldn't be here today, sir. Thank you very much.
    I understand, General, that you have the oral testimony 
representing all three of you. Is that correct?
    General Chiarelli. I do, Mr. Chairman.
    Mr. Bartlett. Okay. Thank you. Please proceed with your 
opening remarks.

STATEMENT OF GEN PETER W. CHIARELLI, USA, VICE CHIEF OF STAFF, 
                           U.S. ARMY

    General Chiarelli. Chairman Bartlett, Ranking Member Reyes, 
distinguished members of the subcommittee, I thank you for the 
opportunity to appear before you today to discuss the fiscal 
year 2012 budget request as it pertains to Army acquisition and 
modernization. I am joined by my colleagues, Lieutenant General 
Bob Lennox, deputy chief of staff of the Army, G8; and 
Lieutenant General Bill Phillips, principal military deputy to 
the assistant secretary of the Army for acquisition, logistics, 
and technology. We look forward to answering your questions at 
the conclusion of these opening remarks.
    As you are all aware, our Nation's military continues to 
face a broad array of complex challenges as we approach the 
start of the second decade of a long-term struggle against a 
global extremist network. Today's uncertain and dynamic 
strategic and operational environments, coupled with current 
political and fiscal realities and the rapid pace of 
technological development have made our outdated, Cold War-era 
strategies no longer supportable.
    To be successful now and into the future we require a 
strategy that takes a more focused and affordable approach to 
equipping our force. Our evolved strategy, aligned with the 
Army Force Generation model, ARFORGEN, will allow us to 
incorporate lessons learned, improve or maintain core 
capabilities, incrementally modernize to deliver new and 
improved capabilities, and integrate portfolios to align our 
equipment modernization communities, thereby enabling us to 
develop and field a versatile and affordable mix of equipment, 
ensuring our soldiers and units have the resources and 
capabilities they need to be successful across the full range 
of military operations today and into the future.
    As part of the Army Modernization Plan 2012 we have 
prioritized our material programs to focus on capabilities 
which give our units and our soldiers a decisive edge in full-
spectrum operations. While considering program cost and size, 
the emphasis is on capabilities critical to Army success and 
our ability to network the force, deter hybrid threats, and 
defeat hybrid threats, and protect and empower soldiers.
    I have talked about the importance of the network with 
members of the subcommittee on numerous occasions. I believe it 
represents the centerpiece of the Army's modernization program, 
and today I am pleased to report we are making significant 
progress.
    The Army is past talking concepts. We are making the 
network happen, delivering needed capability downrange as we 
speak. Certainly there is much more work to be done, but I am 
confident we are headed in the right direction.
    Much of what we are trying to accomplish in terms of 
improving the pace of Army acquisition derived from what we 
learned about the network and about the nature of rapidly 
evolving technologies. However, the principles have application 
across the entire modernization program.
    I am prepared to discuss in greater detail the specifics of 
the Army's critical fiscal year 2012 priority programs, as 
outlined in my statement, for the record and during questions 
and answers.
    The advanced technologies added capabilities we are 
pursuing are vital to the success of our force. That said, we 
recognize that modernizing the force is not solely about buying 
new or better equipment. It also has to do with spending money 
wisely and finding efficiencies wherever possible.
    I assure the members of this subcommittee, I and the Army's 
other senior leaders remain diligent in our efforts to be good 
stewards of scarce taxpayer dollars. Over the past year our 
ongoing capability portfolio review process--we have identified 
a number of areas we are able to make changes and eliminate 
redundancies or outdated requirements.
    In fact, as part of the Department of Defense's reform 
agenda the Army has proposed $29 billion in savings over the 
next 5 years, and we will not stop. We will continue to pursue 
further efficiencies in the days ahead.
    In the meantime, I respectfully request your support of the 
Army's proposed research, development, and acquisition budget 
of $31.8 billion for fiscal year 2012. We believe this request 
allocates resources appropriately between fielding advanced 
technologies in support of soldiers currently in the fight and 
the development of technologies for the future.
    Mr. Chairman, members of the subcommittee, I thank you 
again for your continued, generous support and demonstrated 
commitment to the outstanding men and women of the United 
States Army and their families. We--all three of us--look 
forward to your questions.
    [The joint prepared statement of General Chiarelli, General 
Phillips, and General Lennox can be found in the Appendix on 
page 54.]
    Mr. Bartlett. Thank you very much. And thank you for your--
collectively--many years of service to our country.
    As is my custom, I will ask my questions last hoping that 
they will all have been asked so that I won't need to ask any, 
and I now turn to my ranking member for his questions.
    Mr. Reyes. Chances are, probably not, Mr. Chairman.
    My first question deals with the Army's number one priority 
vehicle, which is the ground combat vehicle. So far, the Army 
has justified the need for the GCV by pointing at the need for 
better protection, more onboard power, and the ability to carry 
additional soldiers. However, there are those that have argued 
that an upgraded Bradley vehicle would be adequate to meet the 
Army's needs.
    So my questions are: What specific new threats, especially 
in terms of IEDs and anti-tank missiles, is the Army worried 
about in the 2020 timeframe, when the GCV would be available in 
large numbers?
    Second, what about an upgraded Bradley? Would that not be 
adequate to meet these future threats?
    And third, what about using lasers and other directed 
energy weapons in the future? How does a GCV compare in 
relation to upgrading Bradley vehicles in this very important 
regard?
    So, I will leave it open, General, for whoever wants to 
tackle those.
    General Chiarelli. I will just make a few comments, sir. 
First of all, the Bradley is going to be around for a long 
time. The GCV is a fighting vehicle and it is a full-spectrum 
vehicle.
    We believe we have revisited our first RFP [Request for 
Proposal], put out a second RFP, where we carefully went over 
every single one of the requirements, and we have worked very, 
very hard to ensure that it is a full-spectrum vehicle. This is 
a vehicle that can be used across the spectrum.
    And one of the things it does is offers capability 
packages. Those capability packages would give it an 
opportunity to work in environments such as Afghanistan, and in 
different parts of Afghanistan and Iraq where there are 
different threats. And with the addition of those capability 
packages, mostly in passive armor, the vehicle gets heavier or 
lighter when you take them off.
    In addition to that, we are going to finally get the entire 
squad, although the Bradley, as pointed out, takes less than 
the squad--finally in the GCV we will be able to put the entire 
infantry fighting squad. In addition to that, we will be able 
to provide an interpreter and a medic a place to be, which are 
critical on today's battlefield.
    We are working very, very hard to get it out in a 7-year 
period because we believe we need the size, weight, and power 
to power the network in an infantry fighting vehicle.
    But I will let Bill and Bob make further comments, but I 
just want to say the Bradley is going to be around for a long 
time.
    Gentlemen.
    General Phillips. Sir, I would just only add one thing. 
When you see the analysis of alternatives that will come 
forward, part of the Bradley--the second question that you had, 
the Bradley piece of that--will be considered as a part of the 
GCV program, so you will see that coming forward.
    The other piece that I would want to emphasize for GCV that 
General Chiarelli sort of alluded to is, we took the original 
RFP on the 25th of August of last year and we decided to pull 
it back. When we went through and recharacterized all the 
requirements--there were over 900--we determined that the big 
four that General Chiarelli just described, we came up with 
about 130 that were critical to make sure that we met the big 
four capability inside the GCV, and the others were tradable in 
some kind of way. That is going to allow us to get this vehicle 
in 7 years at an affordable cost.
    The other point that I would emphasize is the incremental 
capability with the GCV itself. We will build a vehicle in 7 
years and then we want to be able to upgrade that vehicle over 
time.
    General Chiarelli. If I could just add one other thing: 
What is amazing if you look back at Army vehicle modernization 
is the story of the M1 tank. Now, we are not building a tank, 
but what we would like to do is have a program like the Abrams.
    Think about it. The Abrams, 1978 technology that has been 
upgraded from 105-mm gun to 120-mm gun, from a commander's 
weapon station that--I remember we--not all of us had a rough 
time operating--to one today that makes each Abrams tank worth 
two Abrams tanks. That is because that vehicle was built with 
size, weight, and power built into it to allow it, over time, 
to have incremental builds.
    That is what we want to do with GCV. We want a vehicle that 
looks much different 10 years from now than 7 years from now, 
when it first comes out, because we are able, through 
incremental builds, to put new technologies on that vehicle as 
they become proven and capable.
    Mr. Reyes. Thank you very much for that additional 
information, which brings me to a second concern, and that is 
that the budget proposal for 2012 shows production breaks for 
the Abrams tank, Bradley fighting vehicle, and Stryker 
vehicles, starting in 2013, that could last--projected from 3 
to 5 years. The 5-year plan then shows production of upgrades 
starting back up in 2016 or later.
    So the questions that I have are: How will defense industry 
maintain these production lines during the period--the shutdown 
years? How can the Army be sure that those production lines 
will still be there after they have been mothballed for several 
years?
    And what is the economic impact going to be? What will the 
Army do to keep the workers employed at those companies? 
Because obviously a concern that I and other members have is 
that the skilled workforce would just move elsewhere and would 
not be available again when this--when these production lines 
are called upon.
    General Lennox. Congressman Reyes, great question and great 
concern, and not one that we didn't consider this year. As 
General Chiarelli led us through our portfolio review of the 
entire combat vehicle fleet--we took a very holistic review 
this year, and our fiscal year 2012 proposal calls for about 
$2.5 billion. It tries to balance transforming our combat 
vehicle fleet with investments in the ground combat vehicle, 
improving the Bradley and the Abrams for the future, and 
replacing the aging M113 [armored personnel carrier] fleet.
    So we are trying to accomplish all three of those things in 
a very, you know, fiscally informed approach in our strategy, 
and we have undertaken to do that. So there are going to be 
shutdowns. In the Abrams line, for example, we are going to 
finish and buy our acquisition limit of those vehicles.
    We are buying the very finest M1s right now, the SEP 
[System Enhancement Program] version. We have got a very good 
strategy that addresses both the Active and the Reserve 
component. So we have taken a good, thoughtful approach to 
that, but there is some risk.
    In the area of the Bradley, we also have a two-vehicle type 
fleet approach. We have looked at both the Active and the 
Reserve component. They will both receive modernized, pure 
fleet versions of the Bradley. And we have again bought our 
limit of that vehicle.
    The Stryker vehicle has proven itself in combat. With this 
committee's help and Congress' help we have introduced a 
double-V hull approach to the Stryker vehicle. We are going to 
have one brigade that we are going to send to combat this 
summer and we will assess it.
    And in the fiscal year 2012 approach we have also invested 
in modernization programs for all three of those vehicle types. 
They will not prevent, however, the production break that you 
talked about. We are cognizant of that.
    And I think I will turn it over to General Phillips, who 
can talk about some of our approach to that, if that is okay.
    General Phillips. Sir, I would just say that we share the 
concern with the industrial base. And the industrial base 
across all the portfolios is incredibly important to us.
    It is also important that we have worked very closely with 
industry, and I will just give one example: the Humvee, and 
with AM General and the Humvee production line. Most recently 
we worked with Charlie Hall, the new president for AM General, 
and with the team there, to work on the production capability--
number of vehicles per day. And most recently we were able to 
downsize slightly, from 55 per day to 35 per day, which 
sustains the industrial base over a longer period of time. And 
with FMS [Foreign Military Sales] customers and others coming 
in we are able to sustain that critical capability for that 
production line for a period of time longer.
    But we must do so in the most efficient, effective manner 
as we consider all options, sir.
    Mr. Reyes. Thank you.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you.
    As you heard, bells have gone off. I think we have time for 
Mr. LoBiondo's questions. Then it will be about 5 minutes 
before the end of the vote, and we will need to recess for 
three votes, I think. We will be back as soon as we can get 
here.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    My question is regarding the modernization of the Abrams 
tank, and in recent weeks we have heard from the Secretary of 
Defense and I believe from you, General, the need to modernize 
the tank into the future. Specifically, the Army's budget looks 
like it has less than $10 million in the fiscal year 2012 
budget, and I think the statement was the tank has virtually 
reached its upper limits for space, weight, and power.
    So it looks like it is about $100 million reduction from 
previous budgets. In light of this, does the Army still support 
the Abrams modernization?
    General Lennox. Congressman LoBiondo, you are right. The 
fiscal year 2012 submission does call for about $10 million in 
RDT&E [Research, Development, Test, and Evaluation] for the 
Abrams tank.
    We have several--hundreds-of-millions-of-dollars 
underexecuted from previous years, so now that we think we have 
the strategy right and the requirements right, the combination 
of previous years' unexecuted funds and this amount we think is 
about the right amount that we can execute in fiscal year 2012, 
and that was the rationale for our approach. In the out-years 
we have programmed additional amounts for the Abrams.
    General Chiarelli. And I might add, our modernization 
activities are focused on increasing the SWAP [Size, Weight, 
and Power] capability of that tank, particularly the power 
portion of it. So that is exactly our focus with the Abrams.
    Mr. LoBiondo. And as a follow-up question, the 
modernization of the Abrams engine--I understand there is a 
proposal that could increase fuel efficiency by up to as much 
as 17 percent, which could translate to about 50 gallons a day 
for one Abrams tank alone. And with the emphasis on energy 
efficiency and who knows where oil is going to go to per 
barrel, the fuel consumption could be dramatically improved.
    In light of the Army's energy conservation goals does the 
Army believe the Abrams modernization program should also 
include fuel-efficient engines?
    General Lennox. Congressman, it does, absolutely, and that 
is one of the alternatives for Abrams modernization. We have 
not yet defined what that will be but that will certainly be 
one of the considerations.
    Mr. LoBiondo. Would seem that, in light of the energy costs 
and rising, skyrocketing, it might be something that could be 
moved a little closer to the front burner.
    Okay. Thank you, Mr. Chairman.
    Thank you, Generals.
    Mr. Bartlett. Thank you so much.
    We have 8 minutes remaining. We probably can take one more 
question. And who is next in our----
    Ms. Tsongas.
    Ms. Tsongas. Thank you.
    And thank you all for being here, and nice to see you 
again.
    I would like to sort of revisit the body armor question. I 
know that we will be having a hearing in the future, but 
nevertheless, you have heard the concerns expressed from 
Chairman Bartlett, from Ranking Member Reyes, and so I would 
just like to revisit it.
    To sort of restate the concern we have--and you know it 
well--currently soldiers deployed in Iraq and Afghanistan are 
outfitted with armor that weighs as much as 40 pounds. And, 
when combined with the gear that troops must carry in the 
field, the total weight our soldiers carry can exceed 120 
pounds, causing skeletal injury just through the mere fact of 
carrying these materials.
    But also it poses another challenge. At an Armed Services 
Committee hearing just several years ago, when I was newly 
arrived in Congress, I asked a sergeant who was testifying 
about his experiences using body armor in Iraq if there was a 
temptation to take off the armor, given its weight and 
restrictions on mobility, and he replied that, ``Yes, ma'am. 
There is a risk that all soldiers are willing to take. And I 
think that in certain situations, mission dependent, that as 
soldiers we would be happy to take off some of the body armor 
to be more mission-capable, more mobile on the ground, more 
flexible faster.''
    The President signed into law language in the Fiscal Year 
2011 National Defense Authorization Act to establish separate, 
dedicated budget line items for body armor to improve research, 
development, and procurement of body armor equipment. This was 
a positive step in ensuring that the Department of Defense 
focused on addressing weight and protection issues and that 
Congress provides the necessary oversight.
    So my question is for you, General Chiarelli. Why has the 
department's fiscal year 2012 budget request failed to include 
this procurement line item, created by this very committee last 
year, providing armor research and development, and failed to 
conform to the statutory requirement in fiscal year 2011?
    General Chiarelli. Well, since I appeared before the 
committee last time on lighten the load we have made 
significant progress, and one area is in body armor. I think 
you know that we went ahead and gave soldiers the option 
between the old IOTV [Improved Outer Tactical Vest] carrier and 
a new, lightweight plate carrier, which is 8 pounds lighter 
than the IOTV. That is a significant improvement over the 
weight we had before.
    I was recently at a Yuma, where I saw a new 16-mm mortar 
tripod and 16-mm mortar that is 8.7 pounds lighter, and a new 
81-mm mortar that is 20 pounds lighter than its predecessor. At 
the same time, cold and wet weather gear has been improved and 
is not only better but is lighter and less bulky.
    We continue to look at ways to further lighten body armor, 
but I have not heard of any technologies now that will give us 
the required protection as--and the capabilities continue to 
increase at a lighter weight.
    Bill, has--anything you have heard of?
    General Phillips. No, sir. I would only add a couple 
points, sir, on target.
    Ma'am, our body armor is the most tested in the world, and 
for the targets for which it is designed to defeat there has 
never been a body armor that has been defeated by that kind of 
weapon. We saw that last year--by that kind of a round.
    We listened to your comments last year. We created a line 
this year, or in fiscal year 2012, for RDT&E, and for that year 
and some of the out-years as well we programmed about $5.8 
million of RDT&E into the body armor line.
    At the same time, we are currently looking at a requirement 
for body armor holistically that is coming forward to the Army 
staff and we expect to see that requirement through the Army 
and approved probably in the fourth quarter of this year. And 
we will continue to work body armor really hard.
    Couple other things that I would share on lightening the 
load is things as simple as shoes and boots. The boots that 
have been worn previously in Afghanistan--we are using a new 
Danner boot that reduces the weight per soldier of about 1.2 
pounds.
    So we are looking, in every way possible, for the ability 
to lighten the load on soldiers.
    Ms. Tsongas. Well, I think the point of a separate line 
item was really--there is no quick answer, and obviously 
without a focused investment in it we will never develop an 
answer. And so these sound like positive steps forward but 
there is still much work to be done. Eight pounds is obviously 
a good thing, but the load is still altogether too heavy, and 
it is going to take a very focused investment in research and 
development, and I encourage you to engage in that.
    Thank you.
    Mr. Bartlett. Thank you very much.
    We need now to recess for the three votes----
    [Recess.]
    Mr. Bartlett. Thank you for your patience.
    Okay, Mr. Kissell. Thank you.
    Mr. Kissell. Thank you, Mr. Chairman.
    And I would also like to thank you for your patience and 
thank you for the job you all do.
    I have three worries--not questions, but worries. And you 
have addressed them and I just want to kind of address them 
again.
    Number one, I worry about the troop strength as we--I know 
we are talking about 2014, but the concerns about--we get the 
troops we need to keep the rotations we need to stay home 2 
years for a year in combat, and I am concerned we drop off and 
then 6 months later we need those troops.
    I am concerned about the fragmentation of what we need for 
today's combat in terms of equipment versus planning for the 
future. Do we have enough of a plan that we don't end up with a 
mismatch of a lot of different kind of things and kind of 3 
years from now we say, ``Gee, how did we end up with this?''
    And I worry about the training of the soldiers and types of 
warfare other than what we are doing now, so that--I talked to 
people from the 82nd and they--you know, ``When is the last 
time you jumped out of an airplane?''
    ``It has been a while because that is not what we are doing 
now.''
    And I could throw in the National Guard and Reserve but I 
said three. So, you know, I am just curious as to some of your 
thoughts on these three areas.
    General Chiarelli. Well, sir, that is why I think GCV is so 
absolutely important. It is a full-spectrum vehicle. You know, 
and we talk a lot about the light force, but every single unit 
that we send into theater today comes out on the other end when 
they get assigned their TPE, or theater provided equipment, 
looking like a heavy force.
    We end up putting five light infantrymen into a vehicle 
that weighs over 20 tons. That squad is running around the 
battlefield today going from point A to point B in 40 tons of 
equipment.
    And that is what GCV does for us. We see GCV as a vehicle 
for the future and for today, quite frankly--a vehicle that 
will add, through these capability packages, additional passive 
armor and composite form when it needs it, if it gets into 
direct firefight, with the ability to shed it when it is not 
needed and it needs protection only from underneath from an IED 
fight; a vehicle that can go into Sadr City, where we saw a lot 
of explosive formed penetrators being used in Iraq with the 
appropriate protection on it, to when you used it out in the 
West where you never saw an EFP [Explosively Formed Penetrator] 
not having to carry that extra weight.
    So GCV is really our attempt here to try to do something 
that takes into account all the lessons we have learned over 
the last decade and ensure we have a combat vehicle that will 
allow us to fight in a full-spectrum environment.
    General Lennox. If I could, Congressman, over the last year 
General Chiarelli took us through a series of portfolio 
reviews, and you have heard the Secretary of Defense say we 
don't do very well at predicting the future. As an output of 
those portfolio reviews we try to develop strategies that 
emphasize versatility and adaptability.
    General Chiarelli just talked about one of them, the ground 
combat vehicle--very critical and important to us. The network 
is another one. We think if we can get the network right it 
will work in--across the range of military operations and 
empower soldiers in that regard.
    Our aviation and our ISR [Intelligence, Surveillance & 
Reconnaissance] portfolios kind of add versatility to the kinds 
of missions we could be doing, be it along the border or in 
Afghanistan today, or some other mission in the future. And 
finally the soldier--I think Congressman Reyes went down the 
list earlier of the different kinds of attributes that you want 
to cover down in your portfolios, and empowering the soldier 
for the future to give them the right mix of protection and 
lethality are critical.
    And I think we have done that over the course of the last 
year. I am sure we haven't gotten it right--perfectly right--
but I think we have done a pretty good job at having that kind 
of versatility and adaptability built in.
    General Chiarelli. And what is going to be different this 
time is we are not going to go another 10 years and not do 
this. We are internalizing this into the Army process so that 
we are reviewing this all the time.
    I was just down and saw the Third Brigade of the 82nd 
Airborne on Thursday using a rifleman radio with some of the 
command and control software that we are providing, and I tell 
you, it just made me feel so good to hear those soldiers talk 
about a capability that we had put in their hands as part of 
the JTRS [Joint Tactical Radio System] family, the rifleman 
radio, and say, this fills a capability gap that they have had 
for the longest period of time.
    They were just ecstatic about this radio and how it works. 
And it is really not a radio; it is all I.P. [Internet 
Protocol]-based, but the ability to pass data and have voice 
communication with all the members of that squad using a 
nonproprietary waveform, SRW [Soldier Radio Waveform], that 
works and passes that data, and to hear those soldiers was just 
absolutely wonderful.
    Mr. Kissell. Well, I think that is one of the keys, and I 
know it is something we wrote into the last defense 
authorization, is to get feedback on new systems from the guys 
on the ground. And I think that is so important.
    And one of the points that was made, we have just--we have 
got to do this constantly. It has just got to be a measure in 
where we are and just a constant, you know--keeping an eye on 
it. And I know this is what we are going to do, but it is 
just--once again, it is a worry and I appreciate your time.
    And I yield back, Mr. Chairman.
    Mr. Bartlett. Thank you.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    First, certainly my heartfelt thanks to all three of you 
for your dedicated and courageous service to our Nation. On 
Friday this past week and Monday of this week I had the somber 
responsibility to be at West Point for the burial of a true 
American hero, First Lieutenant Daren Hidalgo, and a young man 
who I had the privilege to nominate to West Point and gave his 
life February 20th in Afghanistan, and certainly a reminder of 
the importance of the issues we are talking about here today 
and the sacrifices that these courageous men and women in 
uniform are making in harm's way on behalf of all of us. So I 
sincerely appreciate what you and all in uniform are doing for 
us, and your families.
    I want to touch on, and I apologize coming in late from 
another hearing, and I am running--I have the Secretary of 
Education in my Ed Committee hearing I have got to run to 
next--if I repeat anything that was asked earlier. And I want 
to touch on mainly Bradleys and M88s [armored recovery 
vehicles]. And it is my understanding that in the 2012 track 
vehicle budget that there is about $250 million for upgrading 
Bradleys, and that is something that you believe, as a service 
branch, is critically important to--not just having Bradleys 
out there but have them modernized to the best of our abilities 
for the needs of the soldiers in the field. Is that an accurate 
statement?
    General Lennox. Yes, sir, it is. Two hundred fifty million 
dollars allows us to pure fleet both the Active and the 
Reserve, with certain types of Bradleys--most modern types of 
Bradleys. And it caps off our Bradley investment.
    Mr. Platts. A follow-up, then, specifically with Bradleys 
in Guard--and we have our Pennsylvanian Guard, also Stryker 
brigade, but interact with my Guard a fair amount here at home 
and overseas: Is also accurate that in the 2010 funds that were 
looking to upgrade the Army Guard's heavy brigade combat team 
to the Desert Storm operation, is that accurate?
    General Lennox. Congressman, I can't tell you which set of 
funds--which year we are doing it. I know it is in the plan 
that takes care of the brigade in Pennsylvania and the other 
separate battalions that are in the National Guard. They will 
all be upgraded to that version.
    Mr. Platts. Is there--and you may not be able to answer 
this today--is there a timeframe for when the Guard units will 
start receiving the upgraded Bradleys?
    General Lennox. I will have to take that one for the 
record, Congressman. I know it is in our plan and it is in the 
next several years, but I can't tell you specifically when they 
will see them.
    [The information referred to can be found in the Appendix 
on page 111.]
    Mr. Platts. Appreciate your following up with me and the 
committee.
    And then on the M88s, the A1 and the A2 versions, is there 
plans at all to upgrade to the A2 version and--across the 
fleet, or, you know, all of them or just a partial upgrade?
    General Lennox. Congressman, it is really going to depend 
for us on how the ground combat vehicle develops. It will 
inform us whether or not we have an adequate mix of the A1 
versions and the A2s, which we have today. We think we have a 
pretty good balance, but as we see the ground combat vehicle 
and improvements that may add weight to our combat vehicles in 
the future we are going to have to make that decision in the 
out-years.
    Mr. Platts. Whether to maintain a mix or--okay.
    A final--more of a comment, is associate myself with 
colleagues before we broke who were addressing the issue of 
personal body armor and the importance of doing right in this 
category.
    And this really, General Chiarelli, in my first time to 
have the privilege of interacting with you was in Iraq, and I 
will always remember you had a set of body armor there, 
including the glasses with the piece of shrapnel in one of the 
ballistic sunglasses, and that image, or that demonstration 
that you gave us stayed with me, on the importance of making 
sure we do right by our men and women in uniform in their own 
personal protection in addition to equipment modernization of 
the type we are talking about here today, and just associate 
myself with the importance of us not letting up on that effort 
as well.
    So my thanks, again, to each of you for your service and 
your testimony here today.
    I yield back, Mr. Chairman.
    Mr. Bartlett. Thank you.
    Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    Just two quick questions, and one I am going to show some 
ignorance because it was an article I read and I am trying to 
catch up, but I understand that the Army is going to--you are 
slowly eliminating the Sherpa airplane from Army aviation, and 
if I understand correctly--was it a C-27 [Alenia Spartan 
military transport aircraft] that was going to replace it and 
now the Army has decided that there is not going to be any more 
Army aviators, that you are going to rely on the Air Force to 
supply the C-27?
    And I come from a state that has lots of National Guard, a 
lot of aviators that wear the green of the Army, and it has 
been a concern and I am just curious as to what the 
justification or--is this a budgetary issue or is this 
something that you see that there is not a need for it?
    General Chiarelli. The C-27 is the replacement, and we--our 
predecessors appeared before this committee and talked about 
the need for an improvement for the Sherpa, a replacement for 
the Sherpa, and the C-27 was always to be that replacement. 
There will be aviators in the Army.
    But we find it necessary, as we went through the portfolio 
on aviation, to go with earlier plans, and that was as the C-27 
comes onboard to, in fact, divest ourselves of the Sherpa over 
the next 4 years. Because it is not pressurized; it is an older 
aircraft. And we have got to look to the Air Force to provide 
that mission set for us using the C-27, which is, of course, a 
much more capable aircraft.
    Mr. Critz. Right. Right.
    So the C-27, though--there are still going to be Army 
aviators flying C-27s, or that has been eliminated? The Sherpa 
is eliminated along with the mission for the Army?
    General Chiarelli. The mission remains, but it will be--we 
will be supported by the United States Air Force and the C-27. 
The specific pilots who are currently Sherpa pilots will be 
given an opportunity, like pilots do many times, to transition 
to other aircraft that remain in the Army inventory.
    Mr. Critz. Okay. Thanks.
    And one quick question, and, General Phillips, you actually 
answered an inquiry I had on the APU [Auxiliary Power Unit] for 
the Abrams, and I am going to follow up with that as well, 
because it seems that during Operation Iraqi Freedom we had 
long fuel lines, fuel tails to supply, and it was more of an 
issue. And it seems like we do this--we do it in the private 
sector as well so that when it is needed everyone is saying, 
``Okay, let's study the APU,'' and then you get to a point 
where now it is not such an issue and it tails off again.
    And I believe we are at about 20 years now we have been 
studying the APU, and I am just curious, are we ever going to 
see one in an Abrams in my lifetime?
    General Phillips. Congressman, great question. As we look 
at the Abrams and really all of our systems it is important 
that we take a holistic look on all the systems that are in 
there surrounding space, weight, and power. And certainly the 
APU that is inside the Abrams is a key part of that strategy.
    And also fuel efficiency, as we look at fighting in places 
like Afghanistan and potentially other places around the world. 
How can we gain more fuel efficiency inside those platforms?
    As we look at ground combat vehicle that has been discussed 
at length, there is a fuel efficiency requirement that is in 
that system as well. JLTV--joint light tactical vehicle--also 
has a fuel efficiency requirement as well.
    So we are very serious about the systems and subsystems 
inside our platforms as we look at modernization for Stryker, 
Abrams, Bradley in terms of efficiency, and greater capability 
as well, sir.
    Mr. Critz. So I am not sure if I heard--so where is the APU 
inside the Abrams? Five years? Next year?
    General Lennox. Well, what we have funded, Congressman, is 
the start of the Abrams modernization program. So in fiscal 
year 2012 we start with our requirement. As a result of our 
holistic combat vehicle fleet we have decided that we do need 
to upgrade the Abrams with all those concerns, and the APU will 
be one of these areas.
    Engine, APU, space, weight, and power issues inside the 
Abrams will all be taken as part of that. And it will be over 
the next 3 or 4 years before that will get finally settled out. 
It is in our funding in our program but it is not in the 
immediate future--not in the next year or so.
    General Chiarelli. As a tanker I will tell you--I hate to 
correct you, sir, but it has been longer than 20 years. We have 
been looking for an APU that does everything we thought an APU 
would do, but it has been a--one of the most difficult 
engineering challenges I think we have had.
    Mr. Critz. Well, thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Bartlett. Thank you.
    Ms. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    And thank you, Gentlemen. It is an honor to be here and to 
hear from you.
    I was impressed with reading all of the procurement items 
that we have and glad to see that we have got some new Black 
Hawks--47 new Black Hawks, 32 new Chinooks, and 19 
remanufactured Apaches. Whiteman Air Force Base--of course we 
have Apaches and we are very excited about that.
    I did have a couple questions. Under--on page five--well, 
you don't have that--but it says that under the family of 
medium heavy tactical vehicles that the budget--2012 budget 
requests $433 million for a total of 2,290 trucks and trailers. 
I just wondered, does that mean total then or does that mean 
how many more we are going to buy this year?
    General Lennox. Ma'am, that does mean the additional amount 
in fiscal year 2012, and our goal is to replace the aging 2.5-
ton, 5-ton 800 series and 900 series family of medium tactical 
vehicles, so we will do this over time and that is the fiscal 
year 2012--you have it exactly right--amount.
    Mrs. Hartzler. Okay. Very good. And that would be the same 
for the heavy truck, the 7,928--that will be new--new trucks in 
that category, right?
    General Lennox. Yes, ma'am.
    Mrs. Hartzler. Okay. And there was some press articles a 
couple of years ago, General, that--especially the ``Baltimore 
Sun''--regarding the weight reduction initiatives for soldiers, 
and saying that during that time there was over 20,000 soldiers 
were in non-deployable status due to muscle or bone injuries 
attributed to carrying the heavy rucksacks over rough terrain. 
So I was wondering what improvements have been made to lighten 
the load of our soldiers in 2009?
    General Chiarelli. I appeared before this committee last 
year to talk about our lighten-the-load efforts, and I am here 
to say that we have made significant progress. I just saw the 
other day at Yuma Proving Grounds a brand new 16-mm mortar that 
has been reduced 8.7 pounds and a brand new 81-mm mortar that 
has been reduced 20 pounds using composite.
    We have provided a second type of body armor, what we call 
a plate carrier, to our soldiers, which lowers the weight 8 
pounds. We have fielded a brand new machine gun that is 8 
pounds lighter--MK 48. It is an M240 light machine gun that has 
gotten rave reviews from soldiers.
    We are working with lighter boots, new cold weather and wet 
weather equipment that not only protects better but is lighter. 
We have a full court press on lightening the load of soldiers, 
and we will continue to work that.
    Mrs. Hartzler. I was at Fort Leonard Wood about a month ago 
and the soldiers were raving about their new boots and the 
shoes that they have and how they say they are just as good as 
Nikes or anything; they would rather go running in those than 
regular type of tennis shoes. And I am--as a former track coach 
I thought that is smart. That makes sense to have them like 
that.
    So what is the, just, total weight that a soldier carries, 
then, if you have the body armor on and the sack--what are we 
looking at in their----
    General Chiarelli. It depends on the mission. Not every 
soldier will carry an 81-mm mortar, but for the one who does 
get caught with the base plate of the mortar, to have a 20-
pound savings in the weight is a heck of a lot, which allows 
that soldier to either carry something else--additional 
ammunition--or to lighten that load.
    But I think our studies show anywhere from about 50 pounds 
to some, prior to us beginning this initiative, went up to 110 
or 120 pounds, depending on exactly what it is they were 
carrying.
    Mrs. Hartzler. That is amazing. I am going to be going to 
Afghanistan soon and I hope to be able to put on all of that 
and see what it feels like. I am a farm girl, and we would pick 
up a bale of hay and it would weigh about like that and that 
would be hard to carry that around all day.
    And so I appreciate your efforts to try to make it more 
streamlined and lighter, but yet keep the safety factor. So I 
applaud what you are doing. Thank you.
    I yield back, Mr. Chairman.
    Mr. Bartlett. Thank you very much.
    I have a couple of quick questions and then I will ask one 
for the record, and there may be others submitted for the 
record as well.
    General Chiarelli, with regard to force structure and in 
terms of equipping the force, what I would like to understand 
is the relationship between the current requirement for 45 
Active Duty brigade combat teams and the--cut the end strength 
of 27,000 between 2015 and 2016. General Casey testified last 
week that it took 10 years to get where we are today in terms 
of dwell time and equipment.
    How do you plan program and budget for equipment with a 
pending end strength cut of 27,000 soldiers when it is 
condition-based? Are there plans to reduce the current 
requirement of 45 Active Duty BCTs [Brigade Combat Teams] and/
or to change the current mix of heavy infantry or Stryker 
brigades?
    General Chiarelli. Well, as General Casey testified, this 
is conditions-based. It is based on that we are out of Iraq. In 
most numbers it is based on the drawdown in Afghanistan 
progressing from this summer through 2014. And it is based on 
no other requirement for a large number of land forces in any 
other contingency.
    I would add a fourth condition, and that is access to the 
Reserve component. We have got to have access to the Reserve 
components.
    We don't know whether that is going to be brigade combat 
strength that is going to come out. We are going through the 
mission analysis right now to look at the 27,000.
    But understanding the modernization program that we have 
brought onboard and how we have done that with our capability 
portfolio reviews, we are looking at 2-year packages. And with 
a third of the force always in reset we really believe we can 
do this. And it is absolutely essential we do this, given the 
top-line cut that we had, so that we can ensure that we do not 
rob our equipment accounts to get underneath the cut that we 
received in the top line.
    So we feel that by having the time to plan for this across 
the board, both in equipment and exactly where we take those 
cuts, and given those four conditions, that it makes a lot of 
sense for us to be looking at this now. But General Casey also 
does call it reversible planning, that based on the situation 
we could, in fact, reverse and feel we would get the support of 
the Secretary of Defense if conditions changed.
    Mr. Bartlett. Thank you.
    And the second question, as I mentioned in my opening 
statement, the Army continues to review its network strategy to 
ensure that the Army's acquisition strategy supports the needs 
of the warfighters and the fielding of the brigade combat team 
tactical network. Would you please detail the essence of your 
evolving acquisition strategy, the timelines, and how you are 
proposing to align these with the Army's needs in Afghanistan 
and the BCT modernization schedule?
    In particular, please explain how your network strategy 
will impact the Joint Tactical Radio System program. And you 
might, if you wish, submit additional details for the record 
after your response to this question. Thank you.
    General Lennox. Congressman Bartlett, great question. For 
us it is really two key programs in fiscal year 2012 get us 
along the big first step of building capacity in our network, 
and that is the WIN-T [Warfighter Information Network-Tactical] 
program, where we have about $1.3 billion requested, and that 
is the big pipes that get us from satellites down to corps, 
division, brigade, and battalion, and even to the company level 
that start providing the big pipes and capacity down to 
soldiers.
    The next is the Joint Tactical Radio System, and we have 
requested about $800 million for a variety of radios that take 
the communications then from the brigade and battalion level 
down through the company and platoon to the individual 
soldiers. You heard General Chiarelli talk about the rifleman's 
radio. That is part of our Joint Tactical Radio System.
    We think the program has made enormous progress and we 
think it is on the verge of really providing the capacity that 
we need for soldiers in the future.
    General Chiarelli. Key to our strategy is what we are doing 
out of Fort Bliss, Texas. The establishment of a full brigade 
combat team--we call it the AETF [Army Evaluation Task Force]--
that has all the equipment in the Army, from that which the 
light soldier has to that which the heavy soldier has, and 
putting them on a 4-month test schedule. We are going to solve 
a lot of problems out here.
    I know everybody looks at JUONS [Joint Urgent Operational 
Needs Statement] and ONS [Operational Needs Statement] and 
getting support to the warfighter because he needs it, but many 
times because we don't have anybody dedicated to being able to 
do this like we have now that equipment is sent downrange 
without giving soldiers the opportunity to get through the 
integration issues, and those integration issues have to be 
done downrange.
    By putting this brigade into a 4-month test cycle they are 
going to be testing every single 4 months. We are going to be 
able to rapidly take even the requests from the fields in ONS 
and JUONS--joint operational needs statements and operational 
needs statements--we are going to be able to take that, test 
it, integrate it, and make it so much better for the soldier 
downrange and rapidly get equipment to the soldier.
    I will tell you, we have had an amazing thing with the 
Stryker double-V hull. Thanks to the next panel you are going 
to hear about--and Dr. Gilmore's team. You know, it is from 
January 10 until about 18 months, it will be--we are going to 
be putting in the hands of soldiers a brand new Stryker double-
V hull that provides increased protection to them.
    And that was tested in accordance to ensure that we really 
were putting a good piece of equipment in there. And we have 
done it in a year-and-a-half thanks to the great help that we 
got from the next panel you are going to hear from.
    So I really hold a lot of--I am excited about what is going 
to happen at Fort Bliss and to be able to take this equipment 
and test it every single 4 months and get it through those 
integration challenges and into the hands of our soldiers. I 
think it is going to be big for our network and it is going to 
be big for other equipment we want to get in the hands of the 
warfighter as quickly as possible.
    Mr. Bartlett. Sir, how will the acquisition strategy change 
in light of this and how will competition be applied in 
production?
    General Phillips. Sir, one of the biggest challenges that 
we have in acquisition--Dr. O'Neill, the Army acquisition 
executive and myself--is the alignment of programs--program 
executive offices and program managers--in execution of the 
network strategy. It is the most important program that we will 
execute.
    So what we are doing today is aligning programs that were 
just mentioned, like Joint Tactical Radio System and WIN-T, to 
align them with the strategy, doing the testing out at Fort 
Bliss, White Sands to make sure that the programs and the 
acquisition strategy is aligned with the needs of the Army in 
terms of our Army Force Generation, our ARFORGEN. And that 
piece of it we are going to work really hard.
    Joint Tactical Radio System--I will talk a little bit about 
that. We are aligning the acquisition strategies; we are 
seeking to accelerate for the rifleman radio that was mentioned 
in the demonstration we just did down at Fort Bragg last week.
    We are driving toward a Milestone C decision in July for 
airborne, maritime-fixed station JTRS. We are looking for a 
Milestone C in early fiscal year 2012; ground mobile radio for 
a Milestone C this year.
    So we are driving the key components of the--or, I am 
sorry, the network strategy toward acquisition decisions on a 
short timeline and we are delivering. And I agree with my 
partner, Bob Lennox, that we have made great strides over the 
last year in JTRS as well as WIN-T. Critically important.
    General Chiarelli. And you said in your opening statement, 
Mr. Chairman, the key here is non-proprietary software. We call 
these things radios. They are not radios; they are small 
computers. That is what they are. Different sizes of computers, 
I.P.-based.
    And because we have non-proprietary waveforms in the 
soldier radio waveform--in all the waveforms--we don't care who 
builds the box as long as it carries our waveform. And that is 
the JTRS business model and that is going to spur competition.
    And we are not going to necessarily go out and buy one for 
everyone to start with. We will let the competition make those 
boxes better and cheaper. That is the model--the business model 
that we have adopted with JTRS, and we are excited about it. 
And not everybody is, but we sure are.
    Mr. Bartlett. Thank you very much.
    I have now one question, this for the record. Supplying our 
troops in Afghanistan has focused increased attention on a 
number of things, and one of them is the line haul tractor. I 
have been told the Army has not held a competition for the M915 
line haul tractor in nearly 11 years.
    Why would there not be a business case to pursue a full and 
open competition? Is the M915A5 basically a commercial vehicle 
or has it changed significantly in the last 10 to 15 years?
    How does the Army know it is getting the best truck 
available for the best possible price? Is it possible that 
industry could provide a safer, more fuel-efficient truck at 
less cost than the Army is currently paying for the M915A5?
    Does the Army plan to pursue a competitive procurement of 
line haul trucks in fiscal year 2018 in support of a new line 
haul capabilities production document requirement? You may 
answer this multifaceted question for the record.
    [The information referred to can be found in the Appendix 
on page 111.]
    Mr. Bartlett. Thank you all very much for your testimony. 
Thank you for your service.
    And we will recess this panel and empanel the next 
witnesses. Thank you very much.
    Thank you, Gentlemen, for taking your time to join us. I 
have been to the floor a number of times to do a special order 
after the close of business. As they pan the floor you may note 
that there is nobody in the chamber but there are somewhere 
between 1.5 million and 2.5 million people watching in addition 
to staff and members in a lot of their offices.
    I just returned from Afghanistan and I was surprised that 
soldiers there told me that they watched our hearings here. So 
although there are few of us here at the hearing be assured 
that there are many people watching this, so be careful what 
you say, and that this will be a part of the permanent record 
that people will pore over for quite a while to come.
    Thank you very much for joining us.
    Dr. Gilmore, please proceed, and you will be followed by 
Mr. Sullivan.

     STATEMENT OF J. MICHAEL GILMORE, OPERATIONAL TEST AND 
         EVALUATION, OFFICE OF THE SECRETARY OF DEFENSE

    Mr. Gilmore. Chairman Bartlett, Congressman Reyes, members 
of the committee, I am happy to be here no matter how many of 
you are actually in the chamber. I consider it an honor to be 
here.
    I will just very briefly summarize my written testimony, 
beginning with the results of testing of the Early or Enhanced 
Infantry Brigade Combat Team systems, then moving on to testing 
of Stryker double-V hull, which General Chiarelli referred to, 
and then closing with an assessment--a quick assessment--of the 
plans to continue testing our Army network systems over the 
next several years.
    Unfortunately, with regard to the testing of the E-IBCT 
[Early-Infantry Brigade Combat Team] systems that was conducted 
last year, my assessment remains the same, actually, as it was 
based on the results of the testing that was conducted a year 
prior to that, which is that with the exception of the small 
unmanned ground vehicle the systems under test really 
demonstrated very little, if any, military utility.
    The unattended ground sensors provided the test units 
little useful tactical intelligence. The images that they 
provided were frequently blank or contained little, if any, 
useful information.
    The sensors were difficult to conceal and easily identified 
by the opposing force, which precluded their utility. 
Connecting them to the network was complex, and in fact, the 
majority of the time during a test the soldiers did not succeed 
in connecting the sensors to the network.
    And also, since the information that was collected that was 
useful was useful primarily locally to the units that were 
actually in charge of the sensors there really wasn't much 
point in trying to connect the sensors to the network, although 
some of them can only be controlled if they are actually 
connected to the network.
    The primary purpose of the network integration kit and its 
key component, the Joint Tactical Radio System ground mobile 
radio, which I will refer to as the GMR, is to provide the 
mobile adaptive Internet, enabling information from the sensors 
to be shared among all echelons of command during combat. 
Because the sensors provided essentially no useful information 
the key function that the NIK, the network integration kit, has 
was not demonstrated during the test.
    Now, the NIK and the GMR, while providing the mobile 
adaptive Internet, actually have many more purposes than just 
that, and in fact, the GMR is planned to replace a number of 
the existing radios, including radios that provide secure voice 
communications for the soldiers. This was the first time that 
the secure voice communications capability of the GMR was 
tested under operationally realistic conditions, and 70 percent 
of the time it didn't work, which meant that the test units had 
to rely on the existing legacy radios that they had, or if they 
didn't have them they had to use runners, which is something 
that hasn't been done regularly since World War II.
    The NIK startup and reboot times were very long, in excess 
of the 25-minute requirement. The NIK was complex to operate 
and the soldiers expressed little confidence in it, frequently 
turning it off or putting it in standby when they went on 
offensive missions.
    Also, there were critical information assurance 
vulnerabilities that were found in the NIK. Now, the Army 
reports that it has fixed the last three problems that I 
mentioned and we will have an opportunity to test those fixes 
during the upcoming tests this spring and this summer, that 
General Chiarelli mentioned and I will touch on briefly at the 
end of my remarks.
    The Class 1 Block 0 Unmanned Aerial System was not useful 
in offensive operations due to its weight and bulkiness. It was 
not useful in situations requiring surprise because it is very 
loud.
    It was most useful when used from a static defensive 
position, and it was meant to be used in much more--in many 
more situations than those. It was also unreliable and crashed.
    The unit showed a preference for the existing Raven 
Unmanned Aerial System over the Class 1 UAS because the Raven 
is quieter, was easier to deploy, and had longer endurance.
    The small unmanned ground vehicle, as I mentioned, did 
provide useful military capability. It can be used for remote 
investigation of potential threats, such as improvised 
explosive devices.
    It is also used to support a range of other tactical 
missions, including clearing buildings or caves and traffic 
control points, but its utility is limited by the fact that--
for example, in a building if it goes around a couple of a 
corners and the building has, you know, rather thick walls the 
operator loses radio communications with the unmanned ground 
vehicle and has to go retrieve it. And in a number of instances 
during the tests that exposed the operator and the operator was 
scored as being killed.
    So there can be improvements made to the small unmanned 
ground vehicle but it does provide useful military capability.
    There were several lessons learned, that I mentioned in my 
written testimony, from this experience with the E-IBCT 
systems. I think the most important one for me is that rigorous 
testing of these systems beginning as early as possible is 
really mandatory.
    These systems originated in the Future Combat Systems 
program, which started back in 2000. After 9 years we did 
operationally realistic tests of these systems. We found that 
the majority of them didn't provide military utility.
    I can say, I think without challenge, that that should have 
been discovered much sooner and could have been discovered much 
sooner if more rigorous developmental testing had been done 
than was.
    With regard to the Stryker double-V-shaped hull, we have 
been doing a robust test program, both live fire and 
operational, of that vehicle to support deployment in June 
2011. That is just one of many examples I can cite of doing 
rapid, robust testing to support rapid fielding of such a 
system.
    The preliminary results of that live fire testing are very 
positive. It indicates that the Stryker double-V hull provides 
substantially increased protection to crew relative to the 
existing flat-bottom Strykers, as they are called, that are 
deployed in the theater.
    But that testing also indicates--and it was the first time 
comprehensive testing was done of the existing flat-bottom 
Strykers--that they provide better-than-expected protection of 
the crew, and in fact, in a number of instances meet the 
threshold protection requirements that are levied upon the all-
terrain version of the mine resistant ambush protected 
vehicles. However, there is testing that remains to be done of 
the Stryker double-V hull in order to assure that all of its 
variants provide needed protection.
    Nonetheless, I support fielding the system as soon as 
possible based on these test events.
    As far as Army network testing is concerned, this summer's 
integrated network baseline event is going to be the Army's 
first major test within its fiscal year 2011-2012 integrated 
evaluation schedule, and General Chiarelli talked about his 
plan to do this continuous testing in order to support rapid 
fielding, and I certainly support that strongly. In this 
particular case this summer the Army intends to conduct six so-
called limited user tests under operationally realistic 
conditions to support production or fielding decisions for 
systems, including the Joint Tactical Radio System ground 
mobile radio.
    I am focused in that test, as far as the GMR is concerned, 
on demonstrating that, notwithstanding the somewhat 
disappointing results of the tests last year, that the radio 
can be used in a 20- to 30-node network to rapidly provide 
useful information to soldiers in combat on the battlefield.
    I am concerned about the testing that is planned, primarily 
because in order to make this testing worthwhile the requisite 
planning has to be done and that is behind schedule. The 
individual systems that will compose the network, how they will 
interact with one another, where they will be deployed, at what 
echelons, is yet to be determined, even though we are supposed 
to start testing in June.
    And the Army Test and Evaluation Command has not yet 
developed a plan for conducting the tests, collecting data, and 
evaluating the data. We are late to need for all that 
information and we are working with the Army to develop it as 
quickly as possible, but if we are not able to get that 
information in line here very quickly then we run a risk that 
this first major event will not produce all the information we 
need.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Mr. Gilmore can be found in the 
Appendix on page 76.]
    Mr. Bartlett. Thank you.
    Mr. Sullivan.

 STATEMENT OF MICHAEL J. SULLIVAN, DIRECTOR OF ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Sullivan. Chairman Bartlett, Ranking Member Reyes, 
members of the subcommittee, I am pleased to be here today to 
discuss Army modernization. My oral statement will focus on 
efforts to initiate the ground combat vehicle acquisition 
program, developments in the initial brigade combat team 
program, and emerging plans for the future tactical network. I 
have a written statement I would like to submit for the record.
    I will begin with the ground combat vehicle program. After 
several false starts the Army now appears to have reduced the 
GCV's expected capabilities in favor of a strong focus on 
mature technologies to control cost.
    However, we believe there are critical questions that must 
be addressed as the Army begins technology development on that 
system. These include questions about the urgency of the need 
for the vehicle, the depth of the analysis supporting the 
preferred concept, the feasibility of a 7-year delivery 
schedule, and whether the program will be able to deliver key 
capabilities using only mature technologies.
    It is imperative, in our opinion, that the Army demonstrate 
the match between those requirements it needs and the available 
resources before it proceeds past a Milestone B decision by the 
spring of 2013.
    With regard to the first and second increments of the 
Initial Brigade and Combat Team Systems, the director of 
operational tests has indicated that most demonstrated little 
or no military utility in recent user tests. In response, the 
Army decided not to pursue the second increment and terminated 
all but two of the first increment's systems, the small 
unmanned ground vehicle and the network integration kit.
    However, the Army still assesses the maturity of two 
technologies critical to the kit's performance: the wideband 
networking waveform and the soldier radio waveform. It has very 
low maturity at this point and still risky. We believe this 
raises legitimate questions about whether procurement of up to 
181 units is appropriate at this time.
    The results of these tests have prompted the Army to review 
its requirement-setting process to determine how validated 
requirements that have come through TRADOC [Training and 
Doctrine Command] can translate into little or no military 
utility. One explanation may be that these systems were spun 
out of the Future Combat System concept and the Army 
restructured the acquisitions without an adequate analysis of 
the new post-FCS operational environment.
    Finally, the Army Tactical Network has recently been 
established as a special interest portfolio. I think the last 
panel talked a little bit about that. The Army is now 
developing an integrated network architecture and a 
comprehensive acquisition strategy for it and plans to deliver 
that strategy, we have been told, sometime this month, in 
March. The Army's first step is to establish an understanding 
of the network requirements and develop strategies to manage a 
number of communications command and control acquisitions in a 
coordinated fashion.
    These recent developments in Army acquisition present new 
questions for the Army that it really must address. It is not 
helpful to promise early capabilities, as we have seen here, if 
they are not technically mature or reliable.
    Last year we cautioned that moving too fast with immature 
designs could cause additional delays as contractors 
concurrently address technology, design, and production issues. 
The Army must now incorporate that lesson as it examines its 
current acquisition strategies.
    After a rough start the Army has shown a willingness to 
rethink its original ground combat vehicle acquisition 
approach, for example. However, the acquisition strategy is 
still very ambitious, allowing just 4 years of product 
development before delivering its first vehicle.
    During the next 2 years in technology development the Army 
must determine whether this proposed timeframe is sufficient. 
If not, it must be prepared to add time and resources to the 
development of the ground combat vehicle and it must retain the 
flexibility and the resolve, frankly, to ensure that the right 
work gets done now. And that means good systems engineering, 
good technology development, and good requirements definition.
    The GCV acquisition, if done right, could be a breakthrough 
for Army acquisitions. However, if the risks are not 
appropriately accounted for right now it could end up in the 
same failed position that the Army found itself in with the FCS 
and other programs.
    More importantly, decisions on whether and how the ground 
combat vehicle program enters the acquisition process will 
define how recent acquisition reform legislation will actually 
be implemented. These decisions will be symbolic, from that 
standpoint.
    The Congress and the department have enacted acquisition 
reforms in both legislation and policy, and now is the time to 
enforce those reforms by making the tough decisions at the 
service, the department, and at the congressional levels. If 
this program does not measure up to the standards in law and in 
policy, yet is approved and wins funding, it will be a setback 
to acquisition reform.
    Mr. Chairman, that concludes my prepared statement. I will 
be happy to answer any questions.
    [The joint prepared statement of Mr. Sullivan and Mr. 
Graveline can be found in the Appendix on page 86.]
    Mr. Bartlett. Thank you.
    Thank you, Mr. Graveline, for joining us. I understand you 
will be available for questions.
    Mr. Graveline. Yes, sir. Happy to be here.
    Mr. Bartlett. Thank you.
    Let me turn now to my good friend and ranking member, Mr. 
Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Dr. Gilmore, in your testimony you raised some concerns 
about how the Army will conduct a major network testing event 
at Fort Bliss this summer, as you made mention. Can you be a 
little more specific about your concerns, aside from the 
comments that you made in--I guess putting it in context in 
terms of the requirement to be able to function in an 
integrated manner?
    Mr. Gilmore. My concern is that we don't know how many GMRs 
are going to be in the test. We don't know what units will have 
them at what levels. We don't know what kind of information the 
test units will try to transmit over the mobile Internet.
    Absent that kind of information, it is very difficult to 
plan for the test. We also don't know the same thing for WIN-T 
and some of the other systems that are going to be tested.
    We don't know what the Army's plan is for collecting data. 
We don't know that the Army is going to have sufficient 
capacity to collect the digital information needed to do a full 
assessment of the performance of the systems.
    These are things that we would expect, at this point, to 
already know. Hopefully we will know them by the middle of this 
month, around the 18th of March. That is the current schedule 
on which this information should be provided. However, 
originally it was supposed to have been provided a month ago.
    And if we are going to start testing in June and we don't 
know how many radios are going to be on the--you know, on the--
in the test, who is going to be using them, what they are going 
to be trying to use them to do, how the information is going to 
be collected, that is a concern.
    Mr. Reyes. If you were us, what would be your 
recommendations as to the--first of all, the ability to conduct 
the test; secondly, the ability to track the data that you are 
concerned about; and third, how the results would be utilized? 
What would be your recommendations?
    Mr. Gilmore. First of all, we can conduct the tests but we 
have to plan appropriately and we have to have enough time to 
do that planning. In fact, that was a lesson learned from the 
operational testing of the E-IBCT systems in 2009, where we had 
a good plan but we couldn't execute it and so we didn't get as 
much information as we needed in 2009.
    We can conduct the tests. We need sufficient time to plan 
them and we need to make sure that the Army Test and Evaluation 
Command is staffed and has the infrastructure necessary to 
collect the data and analyze it.
    So at this point my recommendation would be--and this may 
be not greeted with joy by some senior leaders in the Army--my 
recommendation would be that we wait until the end of the 
window for testing this summer in order to do the test. There 
is a window over which it could be conducted.
    Currently, it is planned to begin at the beginning of that 
window, at the earliest possible time. I would recommend, at 
this point, that we look hard at giving ourselves a little more 
time to plan the test--not delaying it, you know, a 
significantly long amount of time, but maybe delaying it about 
6 weeks so that we have sufficient time to plan the test so 
that it can be executed in such a way that it gives us the 
information that we really need to support General Chiarelli's 
desire--and I fully support it--to get this equipment out into 
the field as quickly as we can.
    Mr. Reyes. So based on your work, your concerns are 
predicated on either the lack of information, or lack of access 
to the information, or--what is the basis for your----
    Mr. Gilmore. It is not the lack of access to information. 
We are working well with the Army. They are sharing information 
as they have it, so there is no problem with access to 
information. It is just they have not yet been able to figure 
this out.
    And that is not a criticism of, you know, of the Army. I 
don't mean this as a harsh criticism at all. This is going to 
be one of the most complex tests the Army has ever conducted of 
its communication systems, and it will be a comprehensive test. 
And I support it. We need to do comprehensive tests of these 
networks.
    But, because it is comprehensive and it is so complex--and 
this is the first time we are attempting it, so we are just 
beginning to learn how to do this--we need to make sure that we 
have enough time to make this test a success. And then as we 
move forward we will learn and we will be able to support the 
Army's desire and General Chiarelli's vision to do these tests 
every few months, every year, and have them yield the 
information we need to get this equipment out into the field 
quickly.
    But this is the first one. It is very complex, and so I 
would recommend that we take a little more time to make sure 
that it is a success.
    Mr. Reyes. I guess the obvious question is, have you made 
those recommendations and what have--what has the Army----
    Mr. Gilmore. I have discussed this with General Dellarocco, 
who is the commander of the Army Test and Evaluation Command, 
and we are working on it. He shares a number of my concerns. Of 
course, he and the Army leadership are reluctant, until they 
absolutely have to, to admit that a delay may be in order.
    And they may come up with this information in the next 
couple of weeks and it may be sufficiently comprehensive that I 
would then evaluate that a delay is not needed. I don't mean to 
completely prejudge this. I am just expressing a concern 
because this information is already late to need.
    Mr. Reyes. Okay. Thank you.
    Just one more question for Mr. Sullivan.
    In your testimony you raised concerns about the 7-year 
schedule to the ground combat vehicle.
    Mr. Sullivan. Yes, sir.
    Mr. Reyes. However, the Army is still evaluating, as we 
understand it, the three bids it received from the defense 
industry. So I guess what I am wondering is how can you assess 
that the schedule is ``high risk'' if you haven't seen what the 
different companies will propose?
    Mr. Sullivan. Well, I think, I guess to clarify that a 
little bit, it is not necessarily that we see it at high risk 
at this point. We haven't seen enough, I guess. But just 
judging from past history and how these programs have gone 
before, 7 years is a very ambitious schedule. So what we have 
is a lot of questions.
    I think that is probably--you know, right now there are a 
lot of questions and it may take a year or so to sort these 
out. But what we are really concerned about is if, when they do 
get to a Milestone A and a Milestone B we want to make sure 
that the decisionmakers make decisions based on really good 
knowledge.
    So, you know, what we look for is the maturity of the 
technologies they are using and to make sure that their 
required capabilities they are going for are really doable. 
Right now we are waiting to see. I guess that is the best way 
to put it.
    Mr. Reyes. Fair enough. And since the Army has stated that 
they are taking an incremental approach to the development is 
it possible that the, you know, that the first phase, the first 
increment will not achieve all the requirements based on the 
benchmarks and that it is designed that way, to----
    Mr. Sullivan. Yes. In fact, we would----
    Mr. Reyes [continuing]. Develop it slowly--slower and more 
methodically?
    Mr. Sullivan. Yes, sir. In fact, that is what we have 
advocated. And, you know, we have done a lot of work looking at 
best practices on how to develop products and we have always 
said that the--if you can do it in a knowledge-based way, you 
know, where you really, truly understand your requirements and 
you do it incrementally, not in such a revolutionary fashion, 
you know, like a lot of the weapon systems where they begin 
inventing things, that is the best way to do it because you--as 
long as you are delivering needed value to the warfighter and 
improved value over what they have and you are getting that to 
the warfighter a lot quicker, we see that as a win-win.
    So the first increment, you know, not being real sexy and a 
big bang or anything, we--you know, as long as it meets the 
warfighter's needs that is a good thing.
    Mr. Reyes. And based on General Chiarelli's testimony 
earlier, the manner in which the Abrams tank--you know, he 
mentioned it has been upgraded numerous times and that is 
basically, at least the way I understood it, that is basically 
the approach they are using for the GCV. Is that, in your mind, 
a good approach? Is that----
    Mr. Sullivan. That is the approach we would actually like 
to see. We will believe it when we see it, I guess, is one way 
to put it.
    Mr. Reyes. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you very much.
    Dr. Gilmore, one of the striking outcomes of the 2010 
limited tester using of the Early-Infantry Brigade Combat Team 
equipment was that a majority of performance requirements were 
demonstrated, but in spite of that the equipment provided 
little or no military utility for the force. How could this 
have happened, sir?
    Mr. Gilmore. I can't give you a completely definitive 
answer. I can give you my impressions.
    The requirements that existed tended to be, for the most 
part, what I would characterize as technical performance 
specifications that engineers could relatively easily measure. 
So there were requirements for the resolution of the cameras 
used in the unattended ground sensors, for example.
    What the requirements didn't specify was that the sensors 
should be capable of being easily concealed. This was a problem 
for both sets of sensors--the urban unattended ground sensors, 
which are, you know, similar in appearance to the kinds of 
sensors that the alarm company I use in my home sticks up on my 
wall, as well as the tactical unattended ground sensors, which 
are larger sensor sets that are placed outside.
    One of the problems with those--well, there were several 
problems with them, but one of the problems with those is that 
in order to connect to the network there is a large antenna 
that sticks up where the sensor field is, basically saying, 
``In case, enemy, you were wondering where the sensors are, 
they are right over here where this antenna is.''
    So the primary problems seem to be--and this is not unique 
to Army programs--is that the requirements were stated mostly 
in terms of technical specifications that were easily 
measured--and they must--and those technical specifications 
certainly have to be satisfied in order for the systems to be 
useful. In other words, the camera did have to have sufficient 
resolution for you to be able to recognize a face, for example, 
or recognize a human versus someone else--something else. But 
they aren't sufficient to guarantee military utility.
    To fix this problem--and in fact, I think the Decker-Wagner 
panel, in its recommendations, addressed some of these problems 
with requirements, and I agree with a number of their findings, 
but we need to get the operators involved much sooner in the 
development of requirements. It shouldn't be a bureaucratic 
process. The operators need to get involved early on.
    And I would suggest that the testers should get involved 
early on, particularly people from my office. The law last year 
made my office an official advisor to the Joint Requirements 
Oversight Council, and I view that as a good thing. We are 
participating in JROC [Joint Requirements Oversight Council] 
deliberations.
    But that is not sufficient. We have to get involved earlier 
in the--when the services themselves, before they bring the 
requirements to the JROC, when they are actually developing 
them, to give them our perspectives and our lessons learned on 
what we have found useful when we have done testing and what we 
haven't. And we also monitor what goes on in the field.
    And then also, we can advise them on whether requirements 
are technically realistic or not, based on our experience. And 
then when they are technically realistic, if they are, we can 
advise them on what the implications are for testing of those 
requirements.
    So getting more people involved earlier, particularly the 
real operators and the testers who have a lot of experience, 
would be very useful. And I think that that is consistent with 
some of the recommendations made by the Decker-Wagner panel.
    Mr. Bartlett. Thank you.
    We understand that the results of the 2009 limited tester--
user testing were obscured by poor reliability of the equipment 
being tested. Are you more confident with the results of the 
2010 limited user testing?
    Mr. Gilmore. Yes, I am. The reliability of many of the 
systems was, as you note, very poor in the 2009 testing, but 
with regard to operational effectiveness we saw many of the 
same things in 2010, albeit with substantially improved 
reliability, with the exception of systems like the unmanned 
aerial system--we saw, essentially, the same kinds of things.
    In the 2009 limited user test we saw that the majority of 
the images taken by both sets of sensors were blank or blurry 
and didn't provide useful information. We saw that the UAS was 
noisy and difficult to pack around and had limited utility.
    So unfortunately the answer is yes, I am--you know, I am 
confident that the assessment that we generated is correct.
    Mr. Bartlett. In regard to weapon systems taking too long 
to get into production, some believe that we might shorten that 
time by reducing the quantity of testing. Can you--in this 
regard what should the individual services be doing that they 
currently aren't now doing to work more effectively and 
efficiently with your organization?
    Mr. Gilmore. Let me comment first on this proposition that 
we should be, you know, cutting back on testing. My office 
doesn't want to do gold-plated testing. We don't want to do any 
more testing than is required.
    But we do want to do testing that is sufficiently robust so 
that decisionmakers here in the Congress and in the executive 
branch have the information they need as quickly as they can 
get it to make decisions on these systems, which frequently 
cost many billions if not tens-of-billions of dollars, and that 
is an important mission my office has under the law. But even 
more importantly, we want the information to be available to 
the commanders in the field and the soldiers in the field so 
that they understand what they are getting and, just as 
importantly, what they are not getting.
    And my office has demonstrated, in the case of double-V 
hull, in the case of testing of the mine resistant ambush 
protected vehicles--both the original versions of the vehicles 
and then the all-terrain versions of the vehicles--and the 
ongoing testing of the Gray Eagle ER/MP [Extended-Range/Multi-
Purpose] UAV, in which my office took the initiative to combine 
testing and training at the National Training Center so that we 
could not only get test data but also train the units, because 
we saw that they weren't being trained sufficiently when they 
were being deployed as part of the quick reaction packages that 
are now being deployed to Afghanistan.
    We want to do testing as quickly as possible to get 
equipment that works into the field so that the soldiers in 
combat can use it. But what I mentioned as a lesson learned 
here I think is a clear lesson learned, and that is, to do 
that--to get equipment into the field quickly--you need to do 
robust, rigorous testing early and often.
    And so one of the things that I have been pushing, even 
though I am in charge of operational testing--the law says I 
can advise on developmental testing. I have been pushing for 
earlier, more rigorous developmental testing, and I see that, 
unfortunately, in many instances, including the E-IBCT systems, 
that hasn't been done. We need to do that.
    Then I will not be giving you these pessimistic operational 
test reports, which I do not enjoy giving you. It is much 
better if we can detect these problems early when they can be 
fixed more cheaply or we can make an informed decision that, 
you know, fixing these problems really isn't going to be cost 
effective. It isn't really going to be feasible. We need to 
stop and pursue a different approach.
    So I think it is key to do rigorous, robust testing--not 
gold-plated testing. If we do it and if we plan for it, that 
will enable us to get these systems into the field more 
quickly. Not as quickly as we often plan for, because 
unfortunately the Department of Defense still is the department 
of wishful thinking in many ways, but more quickly than will 
otherwise happen if we have to redo tests, redesign equipment, 
restructure programs, with all the efficiency and increased 
costs that that yields. So I hope that answers your question, 
Mr. Chairman.
    Mr. Bartlett. Thank you.
    In your testimony you mentioned that developmental testing 
is a key to successful operational testing. How can we improve 
the relationship between developmental testing and operational 
testing?
    Mr. Gilmore. Oh, and this gets to the one question that you 
asked me previously that I actually didn't answer, and so I 
will try to do that now: You need to get the testers involved 
early. Just as I said we need to be involved early in the 
development of requirements, we need to be involved early in 
the programs, once the program's offices are set up and once 
the program managers are installed.
    And we are willing to do that; we are doing that. For 
example, we have done it in Stryker double-V hull. We are doing 
it in Gray Eagle. I can go down the list.
    If you get the testers involved early--and I can cite you 
many examples in all of the services where that is happening; I 
can also cite you some examples where it is not happening. For 
example, it didn't occur in the Joint Strike Fighter program 
until within the last year-and-a-half, and particularly with 
the advent of Admiral Venlet taking charge of that program.
    The restructuring that occurred in JSF [Joint Strike 
Fighter] under Secretary Carter and Admiral Venlet--it dealt 
with problems that are mentioned in detail in several of the 
DOT&E [Director, Operational Test & Evaluation] annual reports 
preceding my assumption of this office but continuing in the 
report that I issued last year--in the reports I issued last 
year and this year.
    So getting us involved, having a dialogue with us, 
listening to our concerns, let us understand what the concerns 
of the program managers are because they are always under the 
gun for time and schedule and we understand that and we want to 
help them out in both regards--but getting us involved early 
and getting the developmental testers involved earlier, and 
doing more robust governmental testing as well as contractor 
testing--on a number of these contractors that have been led 
over the last decade we have been relying on the contractors to 
do the testing and the record is not very good, so I think we 
need to reinvigorate government developmental testing. All 
those things will clearly help.
    Mr. Bartlett. Sir, across the department we have trouble 
during operational testing. How much of that do you think is 
due to a lack of quality developmental testing along with 
trying to test immature technologies?
    Mr. Gilmore. The short answer is, much of it. I think it 
was true in the case of E-IBCT. It has been true, for--another 
example is the advanced anti-radiation guided missile.
    Early last year I was presented a test plan for operational 
testing of that missile. I reviewed the developmental testing 
that had been done, which was just a few shots. My response 
was, to the Navy acquisition leadership, ``I am not going to 
prevent you from going to operational testing because I know 
you will learn a lot from it, but I think you are also going to 
be disappointed by the results.''
    So they took the missiles, they put them on the aircraft, 
and the missiles started to fail for a variety of different 
reasons. A variety of different failure modes manifested 
themselves.
    The planes would take off, the operational test squadron; 
they would have to turn back because the missiles failed and 
couldn't be fired. This happened so often that the 
operational--the commander of the operational test squadron 
said, ``'We are going to stop testing. We can't fire the 
missiles. We can't test. And there are so many different 
failures occurring we don't know what is happening.''
    So they stopped the operational test, which was 
unfortunately what I had thought would probably happen, based 
on my review of what the developmental testing had been--was. 
Now they have been working on the missiles to try and fix the 
problems. I got a report just last week that they have, 
unfortunately, still been exhibiting a lot of failures, many of 
which are not yet completely understood.
    These are problems that should not surface for the first 
time during operational testing. They should be worked out 
during developmental testing, and unfortunately they are not.
    So again, the short answer to your question is yes, that is 
clearly a problem and I hope that we can work to fix it. Now, 
it is hard. It is hard even when budgets are fat, and the 
budgets are not fat now.
    And it is very hard for a program manager who is under the 
gun for budget and schedule to take additional time and spend 
additional money for testing. Then it comes to operational 
tests and I have to report very straightforwardly, both to the 
Secretary of Defense and to you, what the results are.
    And those results, when they are stark and they are 
publicized in that manner, then force them to go back and 
restructure the program and relook. And that is a good thing--
better late than never--but it would be much, much better if 
that happened sooner.
    Mr. Bartlett. Thank you. Thank you very much.
    Mr. Sullivan, as the Army proceeds to implement its network 
investment strategy what advice would you offer the Army on how 
to proceed? What are the major areas of risk for the Army to 
focus its management attention?
    Mr. Sullivan. Well, I think most importantly is the idea 
that they do it incrementally, you know, which I think they are 
trying to do now anyway. And the director here has been talking 
an awful lot about developmental testing and immature 
technologies and things like that. I think they have to work 
with technologies in advance in order to make sure they are 
mature.
    As we know, the network integration kits, for example have 
immature technologies. They were ready to go to procurement 
with this. In fact, they procured 81 kits already and they 
still have immature technologies on that.
    So in a way I think they are doing a lot of the things that 
we probably would recommend, and maybe Mr. Graveline could 
weigh in on this. But they are taking an incremental approach. 
They are kind of decentralizing this.
    This is not the Future Combat Systems system of systems 
operation anymore, and they are not relying as much on the 
information and--you know, the ground combat vehicle, for 
example, is going to be a big, heavy vehicle again so that, you 
know, it can have a lot of power and carry a lot of subsystems. 
They have reduced the emphasis on information cutting through 
the fog of war.
    I don't know, Bill, if you have anything to add.
    Mr. Graveline. I would just echo some of the things that 
Mike said, was about the incremental approach, and building on 
the current foundation of the network that they already have, 
because there are already a lot of the pieces are in place in 
the current forces now. And then secondly, their approach for 
demonstrating on a regular basis at Fort Bliss, building up the 
network over time there, having the operational forces working 
with it on a regular basis, working out the bugs, learning the 
best ways how to use it, that is just--it is a very good 
approach.
    Mr. Bartlett. Thank you.
    As the Army approaches the launch of the technology 
development phase of the ground combat vehicle what do you see 
as the major areas of risk for this program to meet its 
performance expectations within 7 years?
    Mr. Sullivan. I think, as I was talking with Congressman 
Reyes about that, it is hard to tell right now really what the 
risks are. We do know that they had an extreme amount of risk, 
I think, with their first RFP in the areas of armor. You know, 
I think they had a lot of very, very immature technologies they 
were looking for for armor protection, and then a lot of the 
sensors on there, a lot of the 360-degree protection that they 
were looking for was calling for technologies that were pretty 
high-risk and pretty immature.
    Now, they pulled back the RFP. They looked at it again and 
we have been told that they reduced the need for a lot of those 
technologies. They have reduced the capability in order to be 
able to control time and cost a little bit more.
    The question--so there is a risk there--are they going to 
get enough bang for their buck? And, you know, that is kind of 
the balance, I think, that you have to play when you try to go 
for an incremental approach like that.
    So the risk on ground combat vehicle now is, number one, we 
probably would like to take a better look at what the RFP 
really calls for, what technologies they are trying to 
integrate into a system, and then in that short period of time 
whether or not they can do, you know, kind of a clean sheet of 
paper design. There is a lot of integration risk, I guess, 
too--not just technology, but system integration risk. They 
need a lot of systems engineering done early on that program.
    Mr. Bartlett. You questioned in your written statement 
whether the Army's final assessment of the reduced GCV 
requirements during its analysis of alternatives was 
sufficiently robust. Can you expand a bit on this?
    Mr. Sullivan. Yes. I think when we looked at the first RFP 
that went out--first of all, they initiated the beginnings of 
the program before the analysis of alternatives was complete, 
so they kind of had an RFP out there for some exotic 
technologies needed to meet the capabilities before they had 
the analysis done. When the analysis--the original analysis of 
alternatives came in for the first set of requirements it came 
in and said that this was a very risky--basically there was no 
way that they could accomplish this in 7 years; there was too 
much technology risk, too much integration risk, you know, the 
industrial base probably wasn't fully prepared for this.
    But that is when the Army take it--and they said, I think 
they put an estimate on the eventual unit cost of the ground 
combat vehicle somewhere between $18 million and $23 million, 
which busted the Army's budget. The Army is looking for a 
target of somewhere around $10 million.
    To the Army's credit, that is when they pulled that RFP 
back. When they sent the new one out with the new set of 
requirements that were lower the analysis team looked at that 
again but we don't believe that they did a full analysis. In 
fact, we would recommend--one thing that we would recommend at 
this point in the ground combat vehicle is that they do a 
robust, very quantitative analysis of this new RFP before they 
get too much further down the road.
    They did a kind of a qualitative assessment. I don't want 
to--the team looked at it. They didn't do the modeling and 
simulation they had done before, they just kind of looked at 
the changes they made and looked at the delta and said, ``Yes, 
this looks less risky,'' more or less.
    Mr. Bartlett. I have a couple questions about lessons we 
learned with the procurement of MRAPs. How long was it from 
``we need it'' to ``we had it''?
    Mr. Sullivan. Well, I will be a little bit fuzzy on this 
but I think it was within a couple of years when they--you 
know, once an urgent need statement went in to the time they 
delivered the first systems I think was within 2 years. Is that 
right?
    Mr. Graveline. Yes, I believe so. There seemed to be some 
lag from the--there was some tracing back of the original needs 
from the warfighters, and that seemed to take some time to get 
up to the right levels and get the needs statements----
    Mr. Sullivan. But suffice it to say it was an efficient 
process.
    Mr. Graveline. Yes.
    Mr. Bartlett. It certainly was. And is the ground combat 
vehicle so enormously more complex? Does it have so many more 
required capabilities?
    My understanding is that MRAPs have done pretty much what 
we wanted it to do and we kind of bypassed all of our very 
meticulous checkpoints to get it there as quickly as we could 
and we really did. We got it there in a couple of years.
    You are looking at a program here that is 7 years--three-
and-a-half times longer--and you are questioning whether it is 
doable or not? What kind of lessons have we learned from the 
procurement of MRAPs that might help us here? Do we really need 
to go through--this really was revolutionary, wasn't it?
    Mr. Sullivan. Well, the MRAP--it was--it certainly was an 
incredible development and acquisition program to meet an 
extremely urgent need. It met the need.
    I don't know that it was a revolutionary--I mean, basically 
what they did----
    Mr. Bartlett. I didn't mean, sir, that the platform was 
revolutionary----
    Mr. Sullivan. Right.
    Mr. Bartlett [continuing]. I meant the procurement was 
revolutionary.
    Mr. Sullivan. The speed of time it took for them to get 
that fielded was incredible.
    Mr. Bartlett. It was incredible.
    Mr. Gilmore. Mr. Chairman, could I----
    Mr. Bartlett. Yes.
    Mr. Gilmore [continuing]. Offer something here?
    We were already building--MRAPs were already being built. 
It is a very heavy armored truck. It was not a great leap 
forward in technology.
    Mr. Bartlett. But it met our needs, did it not?
    Mr. Gilmore. And it met our needs----
    Mr. Bartlett [continuing]. The question, do we really need 
all of these technologies to meet our needs since the MRAPs 
obviously did?
    Mr. Gilmore. It depends upon what those needs are. The 
needs in the case of MRAP were clear and relatively simple: 
Protect crew from underbody blasts----
    Mr. Bartlett. Right.
    Mr. Gilmore [continuing]. Which was actually something the 
Army hadn't really thought about a lot prior to the experience 
in Iraq because it hadn't had that experience. The South 
Africans had and so they had already designed the predecessors 
of the MRAPs that we have and were already building them, as 
were others.
    So if you are not going to take a revolutionary leap 
forward you can design and test in parallel, and produce in 
parallel with testing, and get the equipment into the field 
very quickly.
    And, you know, is it possible, in my view, to do a ground 
combat vehicle in 7 years or even less than 7 years? Yes. But 
it depends upon what kind of requirements you are trying to 
impose.
    If you are trying to impose a great leap forward in sensor 
technology or active protection system technology then you may 
need 7 years or you may need more. If you are trying to build 
an upgraded version of a Bradley you can do that relatively 
quickly.
    So, you know, the requirements and the schedule go 
together. And by the way, the budgets are coupled in there, 
too; the costs are coupled in there, too.
    Now, I have heard--and, you know, it is expressed by senior 
leaders in the Army, ``Well, only once every 20 years or so do 
we get an opportunity to build a new ground combat vehicle so 
we want to get the best that we possibly can,'' and I 
understand that view. But if we want to get the best that we 
possibly can and that turns into a revolutionary leap forward 
then it will take time to get it. If we are willing to settle 
for somewhat less then we can do it more quickly.
    Mr. Bartlett. Mr. Sullivan.
    Mr. Sullivan. One thing I would say about the ground combat 
vehicle now is that if you think about it, really they are 
doing, you know--what we are talking about really, the period 
of time where you are investing very, very large sums of money 
in product development, that really isn't going to begin on 
that program until 2013. So what they are talking about is that 
product development period of really only 4 years.
    This 2-year period they are going to do now is kind of, you 
know, playing around with technologies and risk and kind of 
playing in the sandbox stuff with--I mean, I know it is a lot 
of money but it is a lot less money than when they finally say, 
``Okay, we are going to start integrating these products and 
doing all the full-scale testing on them.'' So I think we are 
probably talking about 4 years, which is a little less.
    And then I would say that probably, because it is kind of a 
clean sheet of paper, it is going to have more capability and 
probably be at more risk than an MRAP. It is going to be a 
combat vehicle. It probably will be a little--it will take a 
little more time.
    But I get what you are saying.
    Mr. Bartlett. Mr. Reyes has a comment, observation, 
question.
    Mr. Reyes. Well, you know, and mine is predicated on the 
issue of immature technologies. For instance, sensors--we were 
dropping long-range reconnaissance patrols on the Ho Chi Minh 
Trail north of the DMZ [Demilitarized Zone] in 1967, 1968, and 
they were--they had these PSIDs, the portable seismic intrusion 
devices, they were called, that they would just lay on the 
trails because there there were no friendlies. All they needed 
to know was that there was an alert, that there was somebody 
coming at them on these various trails so they would put those 
out there to be able to respond and they would put clamores and 
all these other kinds of protective devices in place.
    But my point of that is in 1972, when I was then in the 
border patrol, we were using these PSIDs, you know, surplus 
from Vietnam in the border patrol in 1972. So sensors have been 
around for 40-plus years now that I personally worked with, and 
I saw--Fort Bliss is in my district, so I saw a lot of the 
soldiers that came back from--mostly veterans from Iraq--that 
got a chance to evaluate the sensors, the robots. You have the 
``flying keg'' [Honeywell gas-powered Micro Air Vehicle], you 
know, if the wind was too high it wouldn't maneuver right and 
all of these other things, but I can tell you, those soldiers 
were very much impressed and said, ``We wish we could have had 
these first,'' and some were veterans of Fallujah, and they 
wished that they could have used robots to go down those alleys 
rather than soldiers, their buddies that got killed because 
they went down those alleys.
    So when we talk about immature technologies we are not 
talking--I hope we are not talking about sensors and we are not 
talking about robots, because they have been around a long 
time. We have seen them evolve very quickly, as the chairman 
has said.
    You know, in wartime we have the capacity and the 
capability to accelerate these things because lives are on the 
line. I was with Chairman Hunter, and as the chairman here was, 
when we went to Quantico to test some of the armor repulsive 
capability to do the V-hull and the MRAPs and stuff like that. 
So I, like the chairman, think--I am all for testing and I am 
all for making sure that we follow the carpenter's rule, 
measure twice and cut once, but we just have to streamline this 
process because we have seen it done better.
    And that is why I wanted to comment on the immature 
technologies, because they--sensors have been around, you know, 
in my lifetime since I was a soldier going into North Vietnam 
to drop these LRRPs [Long Range Reconnaissance Patrols] in 
there. And I was--frankly, I was amazed that we were, still in 
the combat evaluation brigade, that we were still evaluating 
these things.
    And I guess when I asked the questions they said it is 
because they have to be part of the network. And it is not just 
the squad that is using these things, like the LRRPs, that are 
going to have to maneuver and respond to them; they want to 
have it at the--I guess at the company level, at the battalion 
level, so that they can see a fuller picture of what the 
battlefield looks like. That was the reason that they gave me 
why they needed to be a little more complex.
    But they were--border patrol today is using those. They 
bury the battery and there is nothing that sticks out except a 
little reed-like antenna. So the capability to hide them was 
not an issue.
    Mr. Sullivan. Well, yes, I think that is an instance where 
you are certainly not gold-plating the requirements, right? 
They are using pretty much what they need.
    Mr. Reyes. Right.
    Mr. Sullivan. And, you know, I would say there are a lot of 
programs--acquisition--if you look at the F-16, for example, 
there is a pretty high-tech instrument, and that was a--really 
when you look at it it was an incremental. The sensors on the 
F-16--you know, all those sensors weren't on there on the first 
one that came out in the 1970s, right? But they were able to--
they worked the tech base.
    And I think sensors and subsystems do this a lot better. 
When you have a platform like a ground combat vehicle, which 
will eventually grow into all of these sensors as they develop, 
that is something different. You know, that is where you are--
you have got to get the technologies right on that.
    But, you know, you do see a lot--F-16, F-15 were examples 
of pretty good acquisitions where they did that incrementally, 
and you can take advantage of--you know, you grow the sensors 
and grow their capabilities in the tech base. You know, you 
invent and do trial and error with the S&T [Science & 
Technology] money, and when they are ready they should be able 
to snap into a ground combat vehicle.
    That is another thing about this is open systems 
architecture is critical for all of that.
    Mr. Bartlett. That was going to be my final question: When 
will we know enough about spiral development and open 
architecture so that we can start with a platform like the 
MRAPs and then have it current with technology for the next 30, 
40 years of its life?
    Couldn't we shorten these programs? Now we try to build 
into the original platform all the bells and whistles that are 
conceivable. Wouldn't it be better to start simple and put them 
in when we know that we are really mature?
    How far are we away from our ability to do a spiral 
development with open architecture so that we can do this?
    Mr. Sullivan. Well, I would hope that the Army, with the 
ground combat--that is one of the things that, for example, we 
would be looking for if we were asked to go in at Milestone B, 
where they make the business case. You know, we have looked at 
the capabilities, we have system engineered them, we have 
looked at the technologies needed, we know they are mature. So 
if you have a business case that has a lot of knowledge about 
what you are going to build, it is not too big, it has open 
systems architecture, for example, and it is going to be the 
first increment but we are going to put space, power, and 
cooling in there and pay attention to open systems so as new 
technologies come available we can snap them in, you know plug 
and play--we would expect that--that is something that we would 
be looking for on the ground combat vehicle.
    Mr. Gilmore. I would just say, I think we can do it now. It 
is just a matter of deciding to do it.
    Mr. Bartlett. So why don't----
    Mr. Gilmore. I would also say we have done it before, 
perhaps not with as much forethought as you are engaging in. 
But the B-52 has been around for a very, very long time. It has 
seen many different uses.
    At the time it was built people decided to build a long-
range aircraft that could carry a lot of payload and they did 
the best job of it that they could. They probably didn't try to 
engage in some big analysis of what would happen even 10 years 
in the future because they couldn't foresee it, but they built 
a good truck of an aircraft at the time--the best one that they 
could build--and it has had a lot of use since then.
    So I think it is more than just thinking about the 
technologies that are available. It is shifting your view of 
what it is you want to do and changing the culture of it.
    Mr. Bartlett. I have one last, last question. Sometimes you 
can get 95 percent of the way there for half the cost of 
getting 100 percent of the way there. Who is making those kind 
of judgments as we move along?
    Mr. Gilmore. Well, I would say that Secretary Gates has 
been making them. And not everyone agrees with all of the 
decisions----
    Mr. Bartlett. But there are thousands of these little 
things along the way in development and, you know, you ask for 
something and if you only needed 95 percent of that you might 
get it 2 years quicker and at half the cost. Who is out there 
looking at these things saying, ``Hey, guys, do you really need 
100 percent? Won't 95 percent do okay because it will cost half 
as much and you will get it in half the time''? Who is doing 
that kind of thing and looking at these----
    Mr. Gilmore. I would say that Secretary Carter is doing 
that.
    Mr. Bartlett. Okay.
    Mr. Gilmore. He has done it on ground combat vehicle.
    I would say that General Chiarelli is doing that, and 
Secretary McHugh are doing that----
    Mr. Bartlett. That is kind of a 30,000-foot evaluation and 
I would like to see it down at the----
    Mr. Gilmore. I understand. But Under Secretary Westphal is 
also getting into it. Under Secretary Westphal and General 
Chiarelli are participating in these acquisition portfolio 
reviews and they are bringing in their subordinates to do this, 
and I would say in some sense they are training their 
subordinates to do that, who will eventually replace them.
    I would agree with you that there is a way to go in terms 
of getting those kinds of ideas and that way of thinking down 
lower into the service requirements organizations and so forth, 
but clearly General Chiarelli and the Army leadership are 
trying to do that. Secretary Gates is trying to do that. For 
example, you know, his push to get Intelligence, Surveillance & 
Reconnaissance capabilities into the theater as quickly as 
possible, and I think he engaged in some teachable moments with 
the Air Force leadership in that regard.
    And I agree with you if your point is that is shouldn't 
have to happen at the level of Secretary Gates. That is 
absolutely true. But it has to start somewhere and sometimes it 
has to start at the top and percolate down.
    Also, constrained budgets are going to play a big role 
here. There will be no choice but to try to go for the 50- and 
75-percent solutions because the 90- or 95-percent solutions 
simply won't be affordable.
    Mr. Bartlett. Sir, by the time the Secretary gets involved 
we are several billions down the road and several years late. I 
would just like to see it start at the very beginning. Do you 
really need that? Because if you only have to get 95 percent of 
that can you live with that? That would only cost you half as 
much.
    People need to be asking those questions all along the 
line, and my perception is those questions don't get asked. You 
just take it as a requirement and try to fulfill it, never 
telling them, ``Gee, do you really need that requirement or 
would 95 percent of that be okay and that would really cost you 
a whole lot less?''
    Mr. Sullivan. The director made a good point a while back, 
and I think that, you know, the culture has an awful lot to do 
with this. The Army says we get to do this ground combat 
vehicle; this is our only chance in 20 years. They are going to 
gold-plate those requirements. They are going to make sure that 
this is the best thing since sliced bread.
    And that culture probably has to change a little bit, but--
--
    Mr. Bartlett. If you will excuse us for just a moment to 
welcome an old and dear friend.
    Mr. Gilmore. Certainly, sir.
    Mr. Bartlett. You will recognize him from his picture on 
the wall.
    Mr. Sullivan. That is Morgan Freeman, right?
    Mr. Bartlett. When he sat here I sat down there at that 
first chair 18 years ago.
    Mr. Sullivan. The only point I guess I would make, there 
are pockets of what you are talking about out there. Every once 
in a while they try it. You know, I would reach back to, like, 
JDAM [Joint Direct Attack Munition], the precision kit that was 
a simple, kind of, you know, a very unsexy thing that did a lot 
for precision strike, right? That was an 80-percent solution.
    And I think there are some systems now. I think of P-8A 
[Boeing Poseidon maritime patrol and reconnaissance aircraft], 
for example, which I think has made some pretty good trades--
you know, not gold-plated, just trying to get the job done. And 
the reason is is because they need it because the system that 
it is replacing is getting really old. So, you know, when 
forced to good decisions can get made.
    Mr. Bartlett. Thank you.
    You have been a great panel. Thank you very, very much for 
your testimony and your service.
    [Whereupon, at 4:14 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 9, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 9, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5463.001
    
    [GRAPHIC] [TIFF OMITTED] T5463.002
    
    [GRAPHIC] [TIFF OMITTED] T5463.003
    
    [GRAPHIC] [TIFF OMITTED] T5463.058
    
    [GRAPHIC] [TIFF OMITTED] T5463.059
    
    [GRAPHIC] [TIFF OMITTED] T5463.060
    
    [GRAPHIC] [TIFF OMITTED] T5463.061
    
    [GRAPHIC] [TIFF OMITTED] T5463.062
    
    [GRAPHIC] [TIFF OMITTED] T5463.063
    
    [GRAPHIC] [TIFF OMITTED] T5463.004
    
    [GRAPHIC] [TIFF OMITTED] T5463.005
    
    [GRAPHIC] [TIFF OMITTED] T5463.006
    
    [GRAPHIC] [TIFF OMITTED] T5463.007
    
    [GRAPHIC] [TIFF OMITTED] T5463.008
    
    [GRAPHIC] [TIFF OMITTED] T5463.009
    
    [GRAPHIC] [TIFF OMITTED] T5463.010
    
    [GRAPHIC] [TIFF OMITTED] T5463.011
    
    [GRAPHIC] [TIFF OMITTED] T5463.012
    
    [GRAPHIC] [TIFF OMITTED] T5463.013
    
    [GRAPHIC] [TIFF OMITTED] T5463.014
    
    [GRAPHIC] [TIFF OMITTED] T5463.015
    
    [GRAPHIC] [TIFF OMITTED] T5463.016
    
    [GRAPHIC] [TIFF OMITTED] T5463.017
    
    [GRAPHIC] [TIFF OMITTED] T5463.018
    
    [GRAPHIC] [TIFF OMITTED] T5463.019
    
    [GRAPHIC] [TIFF OMITTED] T5463.020
    
    [GRAPHIC] [TIFF OMITTED] T5463.021
    
    [GRAPHIC] [TIFF OMITTED] T5463.022
    
    [GRAPHIC] [TIFF OMITTED] T5463.023
    
    [GRAPHIC] [TIFF OMITTED] T5463.024
    
    [GRAPHIC] [TIFF OMITTED] T5463.025
    
    [GRAPHIC] [TIFF OMITTED] T5463.026
    
    [GRAPHIC] [TIFF OMITTED] T5463.027
    
    [GRAPHIC] [TIFF OMITTED] T5463.028
    
    [GRAPHIC] [TIFF OMITTED] T5463.029
    
    [GRAPHIC] [TIFF OMITTED] T5463.030
    
    [GRAPHIC] [TIFF OMITTED] T5463.031
    
    [GRAPHIC] [TIFF OMITTED] T5463.032
    
    [GRAPHIC] [TIFF OMITTED] T5463.033
    
    [GRAPHIC] [TIFF OMITTED] T5463.034
    
    [GRAPHIC] [TIFF OMITTED] T5463.035
    
    [GRAPHIC] [TIFF OMITTED] T5463.036
    
    [GRAPHIC] [TIFF OMITTED] T5463.037
    
    [GRAPHIC] [TIFF OMITTED] T5463.038
    
    [GRAPHIC] [TIFF OMITTED] T5463.039
    
    [GRAPHIC] [TIFF OMITTED] T5463.040
    
    [GRAPHIC] [TIFF OMITTED] T5463.041
    
    [GRAPHIC] [TIFF OMITTED] T5463.042
    
    [GRAPHIC] [TIFF OMITTED] T5463.043
    
    [GRAPHIC] [TIFF OMITTED] T5463.044
    
    [GRAPHIC] [TIFF OMITTED] T5463.045
    
    [GRAPHIC] [TIFF OMITTED] T5463.046
    
    [GRAPHIC] [TIFF OMITTED] T5463.047
    
    [GRAPHIC] [TIFF OMITTED] T5463.048
    
    [GRAPHIC] [TIFF OMITTED] T5463.049
    
    [GRAPHIC] [TIFF OMITTED] T5463.050
    
    [GRAPHIC] [TIFF OMITTED] T5463.051
    
    [GRAPHIC] [TIFF OMITTED] T5463.052
    
    [GRAPHIC] [TIFF OMITTED] T5463.053
    
    [GRAPHIC] [TIFF OMITTED] T5463.054
    
    [GRAPHIC] [TIFF OMITTED] T5463.055
    
    [GRAPHIC] [TIFF OMITTED] T5463.056
    
    [GRAPHIC] [TIFF OMITTED] T5463.057
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 9, 2011

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. BARTLETT

    General Chiarelli. [The information was not available at the time 
of printing.] [See page 21.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. PLATTS
    General Lennox. [The information was not available at the time of 
printing.] [See page 14.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 9, 2011

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. BARTLETT

    Mr. Bartlett. I am pleased to see the Improved Turbine Engine 
Program (ITEP) supported as an Army priority. This program greatly 
reduces fuel consumption and increases power for the Black Hawk and 
Apache fleets and provides the engine for the next generation 
helicopter. I am concerned that all too often we make premature 
selections that result in schedule and cost escalation and cancelled 
programs. It is important that this program embraces competition 
through flight demonstration in order to reduce risk and validate 
operational capability. Please keep congress informed on the 
acquisition strategy and status of this key program. Please explain 
what measures the Army is taking in the acquisition strategy to ensure 
there is competition beyond the Science & Technology phase and into 
Flight Demonstration.
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Bartlett. 1. In a recent ``Inside the Army'' article there was 
a quote that said the Early-Infantry Brigade Combat Team is a ``great 
example of how technology changes so rapidly, based on requirements 
that were written a long time ago.'' Might not the same logic apply to 
the various pieces of ``the network,'' Nett Warrior, and other future 
Army systems still in the acquisition pipeline? What is the Army doing 
now to ensure that the requirements for these systems have also not 
grown stale?
    General Chiarelli, General Phillips, and General Lennox. [The 
information was not available at the time of printing.]
    Mr. Bartlett. 2. The committee noted that the Early-Infantry 
Brigade Combat Team (E-IBCT) test results in 2010 were not very 
different from the results of the 2009 E-IBCT operational tests, with 
the exception of improved reliability of several systems. Our concern 
is that DOD and the Army spends millions of dollars and a great deal of 
institutional energy on these tests. Do you believe that the Army is 
capturing and applying the lessons learned from these operational 
tests?
    General Chiarelli, General Phillips, and General Lennox. [The 
information was not available at the time of printing.]
    Mr. Bartlett. 3. The committee noted that the 2010 Early-Infantry 
Brigade Combat Team (E-IBCT) operational test not only revealed 
weaknesses in several E-IBCT systems, but also noted the lack of 
military utility of the network itself. The Army now has another 
important network operational test planned for this summer. What is the 
Army's plan should this test also reveal that soldiers and their 
leaders don't see utility in these new and expensive communications 
systems?
    General Chiarelli, General Phillips, and General Lennox. [The 
information was not available at the time of printing.]
    Mr. Bartlett. 4. With regards to Ground Combat Vehicle, the 
committee notes that the Army plans to use mature technologies rather 
than concurrently chase some future as-yet-invented ones. We agree with 
that approach. However, since whatever replaces the Bradley Fighting 
Vehicle will have many of the same capabilities as our latest model 
Bradley fleet, has the Army considered other, non-new-materiel and 
perhaps far cheaper solutions such as changes to doctrine, training, 
manning, organization, etc.? For example, adding a fifth Bradley 
Fighting Vehicle to mechanized infantry platoon formations?
    General Chiarelli, General Phillips, and General Lennox. [The 
information was not available at the time of printing.]
    Mr. Bartlett. 5. The Army has stated that its number one 
modernization priority is the Ground Combat Vehicle (GCV) which may 
enter production in 2017 and replace the Bradley Infantry Fighting 
Vehicle. The Abrams tank will remain in the inventory for the 
foreseeable future. As you know, this committee has long been concerned 
over the lack of balance between investment in the Army's current and 
future force. There are concerns that it may be too early to put all 
our eggs in the one basket of GCV. We probably won't have a better 
understanding in regards to what is doable in terms of GCV for a few 
more years. In the mean time, what is the Army doing to upgrade the 
current fleet including the Abrams tank in terms of RDTE and 
production?
    General Chiarelli, General Phillips, and General Lennox. [The 
information was not available at the time of printing.]
    Mr. Bartlett. 6. What was the impact of terminating the Future 
Combat Systems Program and what has the Army learned from recent 
Limited Users Testing at Fort Bliss, TX?
    General Chiarelli, General Phillips, and General Lennox. [The 
information was not available at the time of printing.]
    Mr. Bartlett. 7. What is the extent of the Army's R&D effort to 
reduce the weight of body armor systems? What are your thoughts in 
establishing a task force similar to the MRAP Task Force and ISR Task 
Force to accelerate these efforts?
    General Chiarelli, General Phillips, and General Lennox. [The 
information was not available at the time of printing.]
    Mr. Bartlett. 8. There is no funding in fiscal year 2012 for new 
production high mobility multipurpose wheeled vehicles (HMMWV or 
`humvee'). Could you please elaborate on the Army's acquisition 
strategy for Humvees?
    General Chiarelli, General Phillips, and General Lennox. [The 
information was not available at the time of printing.]
    Mr. Bartlett. 9. In today's austere budget environment, can the 
Army afford to procure the Joint Light Tactical Vehicle (JLTV) at a 
base unit cost of $300-400,000 and a total unit cost of $700-800,000? I 
understand the Army plans to procure about 50,000 JLTVs. How much 
better than the Humvee is JLTV projected to be?
    General Chiarelli, General Phillips, and General Lennox. [The 
information was not available at the time of printing.]
    Mr. Bartlett. 10. As it currently stands, the Abrams tank program 
is set to have a production break (of upgraded vehicles) in 2013 and a 
full blown Abrams modernization effort isn't scheduled to begin until 
2016. Some might say that it is too expensive to continue to upgrade 
battle tanks just to keep the industrial base employed. However, this 
issue is much larger than that. Would we let our only tactical fighter 
producer close down production 5 years before its replacement was 
scheduled to be procured? And while Foreign Military Sales (FMS) may 
have been a possible risk mitigation in the past, the current FMS 
market is uncertain. Is the Army currently looking at any alternatives 
to minimize the impact of this production break? For example, is it 
possible to upgraded older National Guard tanks to bring them in line 
with the most modern version that the Active Duty forces have?
    General Chiarelli, General Phillips, and General Lennox. [The 
information was not available at the time of printing.]
    Mr. Bartlett. It is my understanding that a contract to manufacture 
M915 line haul tractors was competitively awarded to Freightliner, now 
Daimler Trucks North American, on September 8, 2000. I also understand 
it was a 7-year requirements contract, that has since been extended for 
3 years on a sole source basis. Now the Army is proposing to buy 
another 222 vehicles sole source using anticipated FY 11, 12 and 13 
funds. It is also my understanding that the justification for the sole 
source award is that competition would result in unacceptable delays 
and duplicative costs.
    1. Is it correct to say that the M915A5 line haul tractor the Army 
is buying sole source is just an upgraded version of a vehicle designed 
almost two decades ago?
    General Phillips. [The information was not available at the time of 
printing.]
    Mr. Bartlett. 2. What are the major differences in the original 
configuration and the configuration of current vehicles?
    General Phillips. [The information was not available at the time of 
printing.]
    Mr. Bartlett. 3. Since it has not held a competition in nearly 11 
years, how does the Army know it is getting the best truck available 
for the best possible price? Is it possible that industry could provide 
a safer more fuel efficient truck at less cost than the Army is paying 
for the M915A5?
    General Phillips. [The information was not available at the time of 
printing.]
    Mr. Bartlett. 4. The J&A provided this committee stated that it 
would take 39 months to begin full rate of production of a new line 
haul tractor. That seems like a very long time to buy what is 
essentially, a commercial vehicle. But assuming that is an accurate 
projection, why is it unacceptable, since none of the funds requested 
for FY 11 were identified for Overseas Contingency Operations?
    General Phillips. [The information was not available at the time of 
printing.]
    Mr. Bartlett. 5. The Army procured MRAP and Stryker vehicles 
competitively during a time of war, why can't it buy a truck?
    General Phillips. [The information was not available at the time of 
printing.]
    Mr. Bartlett. 6. The other justification for making a sole source 
award is that a competition would result in duplicative costs of $20.8 
million that could not be recovered through competition. These included 
buying test vehicles, operational tests, logistics costs and Armor 
kits. One, how does the Army know it could not recover those costs 
since it hasn't held a competition in nearly 11 years? Second, aren't 
similar costs incurred as part of any acquisition? If the Army's logic 
who extrapolated to every vehicle or weapon it buys, wouldn't it be 
forced to continue buying the same product from the same vendor in 
perpetuity?
    General Phillips. [The information was not available at the time of 
printing.]
    Mr. Bartlett. Also, the J&A stated that Daimler would pay some of 
the costs for the proposed sole source procurement. Please provide for 
the record, the legal basis for this arrangement (i.e. the governing 
statute, FAR provision, comptroller general decision and case law). 
Please provide for the record:
    a. The schedule for delivering each of the 222 vehicles the Army 
plans to procure sole source to units and identify when those units are 
expected to deploy to Afghanistan or Iraq.
    General Phillips. [The information was not available at the time of 
printing.]
    Mr. Bartlett. b. The procurement history for the MRAP and Stryker 
vehicles to include: the date the RFP was issued; the length of time 
for safety/operational testing and date that full rate of production 
began.
    General Phillips. [The information was not available at the time of 
printing.]
    Mr. Bartlett. 1. One of the striking outcomes of the 2010 limited 
user testing of the Early-Infantry Brigade Combat Team equipment was 
that a majority of performance requirements were demonstrated but that 
the equipment provided little or no military utility for the force. 
From your perspective, could you offer an explanation on how this 
outcome could have possibly occurred? We understand that the results of 
the 2009 limited user testing were obscured by the poor reliability of 
the equipment being tested. Are you more confident with the results of 
the 2010 limited user testing?
    Mr. Gilmore. [The information was not available at the time of 
printing.]
    Mr. Bartlett. 2. One of the two Early-Infantry Brigade Combat Team 
items of equipment that is moving forward is the Network Integration 
Kit (NIK). However, its performance during the 2010 limited user 
testing was marginal at best. Do you think that the testing was robust 
enough to either demonstrate its potential or its true limitations? 
Some of the test findings were that the NIK was cumbersome to operate 
and its contribution to the operating unit was quite small. Are these 
correctable issues, in your view, or is there still hope for more 
positive results on the NIK?
    Mr. Gilmore. [The information was not available at the time of 
printing.]
    Mr. Bartlett. 3. At the heart of the Network Integration Kit's 
(NIK) problems seem to be the Joint Tactical Radio Systems (JTRS) and 
its complex waveforms. Although some technical experts have expressed 
grave concerns about the viability of these radios and waveforms, the 
Army seems intent on going forward with them in some fashion. From a 
test perspective, do we know enough yet to make an informed decision on 
the future of these technologies?
    Mr. Gilmore. [The information was not available at the time of 
printing.]
    Mr. Bartlett. 4. The Army plans on establishing the Fort Bliss 
complex with a full composite brigade to, among other things, conduct 
regular demonstrations of the current tactical network as well as 
possible upgrades. Given the significant investments involved in this 
objective, do you support the Army's network demonstration plans? Do 
the DOD and Army test communities have the necessary resources to 
monitor and evaluate the Army plans for network demonstrations?
    Mr. Gilmore. [The information was not available at the time of 
printing.]
    Mr. Bartlett. One of the striking outcomes of the 2010 limited user 
testing of the EIBCT equipment was that a majority of performance 
requirements were demonstrated but that the equipment provided little 
or no military utility for the force. From your perspective, could you 
offer an explanation of how this outcome could have possibly occurred? 
We understand that the results of the 2009 LUT were obscured by the 
poor reliability of the equipment being tested. Are you more confident 
with the results of the 2010 LUT?
    Mr. Sullivan and Mr. Graveline. First of all, the requirements were 
probably not thoroughly refined and vetted with the ultimate users of 
the equipment. For example, the Network Integration Kit has proven to 
be troublesome for the operators and its startup process is complicated 
and time consuming. These are things that the operators or users may 
have readily pointed out much earlier. Second, there was too much focus 
on what the equipment was expected to do and not enough focus on what 
burdens it may impose on the users. The Tactical Unmanned Ground Sensor 
did fairly well in detecting approaching threats but it was much 
heavier than expected and was time consuming to put in place and to 
support. The Class I unmanned aerial system was expected to ``hover and 
stare'' and send back video on enemy locations. However, it turned out 
to be very noisy and that eliminated any possibility of stealthy 
operations. Third, as we predicted earlier, the equipment was not 
technically mature and was not ready for production or fielding, no 
matter the perceived urgency in doing so. Fourth, the E-IBCT Increment 
1 systems were a continuation of previous Future Combat System (FCS)-
related efforts to spin out emerging capabilities and technologies to 
current forces. FCS was to be a synergistic system-of-systems. The Army 
conducted a single analysis of alternatives for the program and 
concluded that an FCS-equipped brigade would be more effective than 
other Army combat brigades. When the FCS program was terminated, the 
Army restructured the program into the E-IBCT Modernization, which 
aimed to field subsets of former FCS systems to the current force. 
However, this decision was not informed by analyses of alternatives for 
the individual systems. Such analyses would have informed decision 
makers about the systems' individual ability to satisfy a mission need 
outside of the earlier FCS fighting construct, which may have provided 
insights into their potential military utility. Finally, the poor 
reliability of the equipment did seem to prevent an earlier 
understanding of their poor military utility. Moreover, given the fact 
that the evaluations of the 2010 Limited User Tests from both the Army 
Test and Evaluation Command and the Director of Operational Test and 
Evaluation reached the same conclusions, we are confident in the 
results of testing.
    Mr. Bartlett. One of the two EIBCT items of equipment that is 
moving forward is the NIK. However, its performance during the 2010 LUT 
was marginal at best. Do you think that the testing was robust enough 
to either demonstrate its potential or its true limitations? Some of 
the test findings were that the NIK was cumbersome to operate and its 
contribution to the operating unit was quite small. Are these 
correctable issues, in your view, or is there still hope for more 
positive results in the NIK?
    Mr. Sullivan and Mr. Graveline. We would leave it up to the test 
and evaluation experts to determine whether the 2010 limited user 
testing was sufficiently robust. However, the NIK's performance in that 
testing was marginal at best and it did not contribute very much to the 
unit's effectiveness. This indicates that the testing was at least 
robust enough to expose operational inadequacies in the NIK systems. 
The Under Secretary approved additional NIK production but directed the 
Army to correct a number of deficiencies and continue testing before 
fielding the NIK to operating units. We believe that this is vitally 
important. Only systems that are proven to be reliable and capable 
should be fielded to our warfighters. Hopefully, the Army can identify 
solutions to the NIK deficiencies in the coming months but those 
solutions will need to be thoroughly demonstrated in testing. Moreover, 
it is important to keep in mind that the Army has clearly stated that 
they do not consider the NIK to be a viable, affordable, long-term 
solution. We agree and do not see the need to procure any more NIKs 
than those needed for testing.
    Mr. Bartlett. At the heart of the NIK's problems seems to be the 
JTRS and its complex waveforms. Although some technical experts have 
expressed grave concerns about the viability of these radios and 
waveforms, the Army seems intent on going forward with them in some 
fashion. From a test perspective, do we know enough yet to make an 
informed decision on the future of these technologies?
    Mr. Sullivan and Mr. Graveline. The Army has been developing JTRS 
radios and associated waveforms for about 13 years. Maturity levels for 
the associated technologies have not improved much during that time. 
While the Army has demonstrated some improved reliability at the 2010 
Limited User Test and reported some success in more recent testing, the 
systems have not yet proven to be militarily useful. Additional testing 
is to be conducted shortly. Thirteen years of knowledge exists about 
the performance of the JTRS program and associated waveforms, and it is 
up to the Army, DOD, and the Congress to make the necessary and prudent 
decisions based on that knowledge. We would defer to DOT&E to provide 
the test perspective on the viability and future of these technologies.
    Mr. Bartlett. The Army plans on establishing the Fort Bliss complex 
with a full composite brigade to, among other things, conduct regular 
demonstrations of the current tactical network as well as possible 
upgrades. Given the significant investments involved in this objective, 
do you support the Army's network demonstration plans? Do the DOD and 
Army test communities have the necessary resources to monitor and 
evaluate the Army plans for network demonstrations?
    Mr. Sullivan and Mr. Graveline. In our acquisition best practices 
work, we have advocated an incremental development approach as well as 
thorough testing of systems before production and fielding. In the case 
of the evolving networking systems, the Army Evaluation Task Force will 
periodically receive equipment that it will test and train with so that 
soldiers can provide feedback to developers for system improvements. It 
will also provide Army and DOD officials with information that will 
help them make production decisions and better plan fielding of the 
network systems. In the past, we have commented on the task force's 
potential advantages, like having a near brigade-sized unit testing 
prototypes and incorporating soldier feedback into the design process. 
While there may be some advantages with the Army's new process, it will 
have a substantial cost. For example, the projected spending for 
brigade combat team network integration, modeling, simulation, test and 
evaluation for fiscal year 2011 is $169 million. Finally, we would 
prefer that the test community comment on the adequacy of the resources 
available to monitor and evaluate network development and 
demonstration.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOBIONDO

    Mr. LoBiondo. The Army's Fiscal Year 2012 Research, Development, 
Test and Evaluation budget shows a decrease in funding for Abrams Tank 
Improvement program from $107.5 million in Fiscal Year 2011 to $9.7 
million in Fiscal Year 2012--close to a 90% reduction in funding. 
However, in the accompanying budget material provided to the Committee, 
the Army notes the Abrams tank has ``virtually reached its upper limits 
for space, weight and power.'' And, the Abrams tank is expected to be 
in service through 2045. Moreover, it appears the Army doesn't plan to 
address engine improvements until the second increment of the Abrams 
Modernization Program--which we understand could be as early as Fiscal 
Year 2018.
    1. How does current Abrams Modernization Program account for engine 
technology insertion in the Fiscal Year 2012 budget and associated 
Program Objective Memorandum?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. LoBiondo. 2. It is anticipated the engine improvements will 
yield approximately 50 gallons of fuel savings per mission day; how 
does the Army account for return on investment in the decision making 
process for Abrams Modernization?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. LoBiondo. 3. Assuming the Army had the available resources for 
power train improvements in Fiscal Year 2012, what power train 
technology insertion programs could the Army implement for the Abrams 
Modernization Program? Please include costs, benefits and program 
element numbers for each power train technology insertion program.
    General Chiarelli. [The information was not available at the time 
of printing.]
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. ROONEY

    Mr. Rooney. The Committee understands that the Army plans to extend 
the Abrams service life through 2045. Based on budget information 
provided to this Committee, the Army does not intend on modernizing the 
engine of the Abrams tank until past 2018. The power train accounts for 
60% of the annual maintenance costs for the Abrams tank. The facts 
would seem to lend themselves to a far greater urgency for an engine 
upgrade. The Army has not truly upgraded the Abrams engine in 20 years. 
Shouldn't any decision on Abrams modernization also include 
prioritizing the engine upgrade?
    General Chiarelli. [The information was not available at the time 
of printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. AKIN

    Mr. Akin. 1. The Committee understands that the Army plans to 
extend the Abrams service life through 2045. Based on budget 
information provided to this Committee, the Army does not intend on 
modernizing the engine of the Abrams tank until past 2018. The 
powertrain accounts for 60% of the annual maintenance costs for the 
Abrams tank. The facts would seem to lend themselves to a far greater 
urgency for an engine upgrade. The Army has not truly upgraded the 
Abrams engine in 20 years. In light of this significant delay in 
upgrading the engine, does the Army still support Abrams modernization?
    General Phillips. [The information was not available at the time of 
printing.]
    Mr. Akin. 2. Are you aware of an initiative to modernize the 
current Abrams engine in such a way that would significantly increase 
fuel efficiency, reducing fuel consumption by up to 17%? This 
improvement equates to 50 gallon per day reduction of fuel for one 
Abrams tank. With the emphasis on energy efficiency it would seem to me 
we would want to reduce Abrams fuel consumption as fast as possible. In 
light of the Army's energy conservation goals, does the Army believe 
the Abrams Modernization program should also include fuel efficient 
engines?
    General Phillips. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. 1. In today's austere budget environment, can the Army 
afford to procure the Joint Light Tactical Vehicle (JLTV) at a base 
unit cost of $300-400,000 and a total unit cost of $700-800,000?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Turner. 2. I understand the Army plans to procure about 50,000 
JLTVs. How much better than the Humvee is JLTV projected to be? Will 
the JLTV be worth the additional cost?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Turner. 3. Originally, when were JLTVs supposed to go into 
production? When are they expected to go into production now?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Turner. 4. How long are Army and Marine Corps supposed to use 
these recapitalized vehicles before receiving JLTVs?
    General Chiarelli. [The information was not available at the time 
of printing.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
